<html>
<title> - HIGHWAY TO HEADACHE: FEDERAL REGULATIONS ON THE SMALL TRUCKING INDUSTRY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     HIGHWAY TO HEADACHE: FEDERAL 
                   REGULATIONS ON THE SMALL TRUCKING 
                                INDUSTRY

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 29, 2017

                               __________

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           

            Small Business Committee Document Number 115-049
              Available via the GPO Website: www.fdsys.gov
                  
                  
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-720                   WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>                 
                  
                  
                  
                  
                  
                  
                  HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     3

                               WITNESSES

Mr. Monte Wiederhold, President, B.L. Reever Transport, Inc., 
  Maumee, OH, testifying on behalf of the Owner-Operated 
  Independent Drivers Association................................     5
Mr. Marty DiGiacomo, Owner, True Blue Transportation, Harrisburg, 
  NC, testifying on behalf of the National Association of Small 
  Trucking Companies.............................................     7
Mr. Stephen Pelkey, Chief Executive Officer, Atlas PyroVision 
  Entertainment Group, Inc., Jaffrey, NH, testifying on behalf of 
  the American Pyrotechnics Association..........................     9
Mr. Robert Garbini, P.E., President, National Ready Mixed 
  Concrete Association, Silver Spring, MD........................    10

                                APPENDIX

Prepared Statements:
    Mr. Monte Wiederhold, President, B.L. Reever Transport, Inc., 
      Maumee, OH, testifying on behalf of the Owner-Operated 
      Independent Drivers Association............................    29
    Mr. Marty DiGiacomo, Owner, True Blue Transportation, 
      Harrisburg, NC, testifying on behalf of the National 
      Association of Small Trucking Companies....................    36
    Mr. Stephen Pelkey, Chief Executive Officer, Atlas PyroVision 
      Entertainment Group, Inc., Jaffrey, NH, testifying on 
      behalf of the American Pyrotechnics Association............    46
    Mr. Robert Garbini, P.E., President, National Ready Mixed 
      Concrete Association, Silver Spring, MD....................    54
Questions and Answers for the Record:
    Questions from Hon. Kelly, Hon. Norman, and Hon. Bacon to Mr. 
      Monte Wiederhold and Answers from Mr. Monte Wiederhold.....    63
    Questions from Hon. Kelly, Hon. Norman, and Hon. Bacon to Mr. 
      Marty DiGiacomo and Answers from Mr. Marty DiGiacomo.......    65
    Questions from Hon. Kelly, Hon. Norman, and Hon. Bacon to Mr. 
      Stephen Pelkey and Answers from Mr. Stephen Pelkey.........    68
    Questions from Hon. Kelly, Hon. Norman, and Hon. Bacon to Mr. 
      Robert Garbini and Answers from Mr. Robert Garbini.........    71
Additional Material for the Record:
    Commercial Vehicle Safety Alliance (CVSA)....................    74
    Letter to the Small Business Committee.......................    76
    Truckload Carriers Association (TCA).........................    81

 
                     HIGHWAY TO HEADACHE: FEDERAL 
                   REGULATIONS ON THE SMALL TRUCKING 
                                INDUSTRY

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                  House of Representatives,
               Committee on Small Business,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Brat, Radewagen, Knight, 
Kelly, Blum, Comer, Fitzpatrick, Marshall, Norman, Curtis, 
Velazquez, Evans, Lawson, Chu, Adams, Espaillat, and Schneider.
    Also Present: Babin.
    Chairman CHABOT. Good morning. The Committee will come to 
order.
    On behalf of the Small Business Committee I first want to 
welcome our newest representative to this Committee, John 
Curtis, from the great state of Utah. And he is right down on 
my right, your left. He was sworn in as a member of the House 
earlier this month and recently joined our Committee. His 
experience as mayor of Provo and commitment to providing relief 
to small businesses will be an asset to this Committee. There 
is no question about that. We look forward to working with him 
and to provide solutions for America's small businesses. And 
welcome aboard. Great to have you.
    And I would like to yield about 30 seconds to my colleague 
from Texas if he would like to----
    Mr. BABIN. Yes, sir. Thank you, Mr. Chairman, for letting 
me come in here and sit down and just say thank you for having 
this hearing. I think it is very necessary. As the sponsor of 
the ELD mandate delay, I would just say that--and I have been a 
small businessman my entire career as a dentist and also as a 
truck driver. I was a former truck driver at one point in time 
and I think the backbone of our economy is small business. And 
we, as Republicans, as Conservatives, as pro-business, and many 
of my Democrat colleagues as well, I think it is imperative 
that we all look out for the small businessman because he is 
the one who is risking his lifeblood, his family, his 
investments, and this is where most people work in small 
businesses across this country. And rolling back a lot of this 
overregulation I think is something that is very, very 
important, and I am not even asking for a rollback. We are just 
asking for a delay until we can work a lot of these bugs out. 
Some of these questions on ELDs that are going to be mandated 
here next month, just a few days before Christmas.
    So Mr. Chairman, thank you for letting me be here. I would 
be willing to answer any questions if that is necessary. 
Otherwise, I am going to have to get back to a science 
environmental hearing. Okay?
    Chairman CHABOT. You can go but no Committee is more 
important than this Committee. We do appreciate you being here, 
and Mr. Babin is the original sponsor of the ELD Extension Act 
of 2017. And I want to thank the ranking member for having 
agreed to allow him to participate. I think he has kind of 
already participated, but thank you very much for that. We 
appreciate it.
    The Small Business Committee is here today to examine how 
regulatory Federal regulations affect small businesses in the 
trucking industry. The trucking industry plays a critical role 
in the U.S. economy. America's businesses rely on its transport 
and deliver all types of goods and products, including consumer 
goods, fuel, food, machinery, and raw materials, among others. 
Without the trucking industry our economy literally could not 
function. The industry produces more than $700 billion in 
revenue. Trucking companies also provide over 7 million jobs in 
this country, which is 6 percent of all the jobs in America. 
Small businesses make up the majority of the trucking industry. 
In fact, 97 percent of trucking companies operate fewer than 20 
trucks. Many of these trucking companies are owner-operators, a 
one-person business essentially.
    As this Committee knows all too well, one of the biggest 
challenges facing America's small businesses today is complying 
with Federal regulations. With many regulations taking a ``one 
size fits all'' approach, small trucking companies are forced 
to comply with expensive, confusing, and oftentimes time-
consuming regulations. This is not only costing small 
businesses but America's economy as a whole through lost time 
and delays in receiving all types of goods and products.
    There are many agencies that regulate the trucking 
industry. The Federal Motor Carrier Safety Administration is 
one of the main agencies that regulate small trucking 
companies. In fact, according to it, 99 percent of the motor 
carriers that it regulates are considered small entities. But 
the FMCSA is not the only one with the power to regulate small 
trucking companies. Agencies such as the Pipeline and Hazardous 
Materials Safety Administration, The Environmental Protection 
Agency, OSHA (the Occupational Safety and Health 
Administration), the National Highway Safety Administration all 
have the authority to regulate small trucking companies, and 
they do.
    While it is important to make sure that our roads and 
drivers are safe, needless regulations on small businesses can 
pile up and cost so much that it can literally on occasion put 
them out of business. We need to ease the regulatory burden on 
small businesses and make sure that agencies are considering 
how their regulations will affect America's small businesses. 
That is why I sponsored legislation that would provide 
regulatory relief to small businesses, H.R. 33, the Small 
Business Regulatory Flexibility Improvements Act of 2017 would 
ensure that Federal agencies actually examine how their new 
regulations would impact small businesses and require them to 
consider ways to reduce unnecessary costs and burdens. This 
bill was included in a larger bill, H.R. 5, the Regulatory 
Accountability Act of 2017, which passed the House with a 
bipartisan vote back in January. The Senate has introduced a 
similar bill, S. 584, which we hope will be taken up soon as 
this is an important step towards easing the regulatory burden 
on small businesses.
    I have also cosponsored, as a number of us have, H.R. 3282, 
the ELD Extension Act of 2017, again, offered by our colleague 
from Texas, Brian Babin, which would delay the effective date 
of a regulation requiring electronic logging devices in 
commercial motor vehicles and provide small firms with more 
time to comply. Our witnesses today will provide real examples 
of what it is like for small trucking companies to navigate the 
confusing regulatory landscape. The chair is aware that there 
may be a difference of opinion from some organizations on some 
of the regulations that will be discussed in today's hearing in 
particular from the American Trucking Association. To 
accommodate them we are providing them the opportunity to 
submit a statement that will become part of the official 
hearing record, and I will review these statements myself when 
they are received, and I would encourage other members of the 
Committee to review that statement as well.
    And I want to thank our witnesses for being here and taking 
time away from their businesses to travel to Washington to 
testify about their experiences before the Committee.
    And I would now like to yield to the ranking member for her 
opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    The trucking industry is a critical component of our 
nation's transportation network. Trucking connects industries 
and consumers, stimulating economic activity in every corner of 
the country, and creating new markets for entrepreneurs.
    According to the Bureau of Transportation Statistics, 
trucks annually transport $10 billion tons of freight valued at 
more than $720 billion in revenue. This economic engine is 
predominantly comprised of small business operators with 90 
percent of firms having fewer than 10 trucks. Most of these 
small firms are owner-operators who run their business with 
just one truck with the owner at the wheel. Although dominated 
by small businesses, the trucking sector provides significant 
employment, supporting jobs for over 7 million people, almost 
half of them as drivers.
    Given the prevalence and centrality of trucking to our 
economy, a number of steps have been taken over the years to 
improve safety starting in the 1930s with hours of service 
limitations followed by a number of rules and regulations that 
were subsequently adopted. A wide array of agencies are 
involved in regulating the trucking industry, including the 
Federal Courier Safety Administration, the Environmental 
Protection Agency, the Occupational Safety and Health 
Administration, and the National Highway Safety Administration.
    While the list seems long, each agency is tasked with 
particular regulations that fit within their particular 
jurisdiction. Although regulations are necessary and important 
to the public safety, it is critical that agencies take into 
account the economic impact of regulations on small firms.
    As always, the challenge is protecting the public safety 
while ensuring regulations do not unnecessarily harm or 
negatively impact small businesses, in this case, small 
trucking firms. In addition, a thriving truck sector requires a 
well-maintained infrastructure system. This vital economic 
artery needs safe bridges and functioning highways to reach its 
potential.
    To that end I am concerned that Congress and the president 
have yet to move a meaningful infrastructure program that will 
make necessary and long-overdue upgrades. This is an area where 
I would hope there might be bipartisan cooperation.
    Today's hearing will provide an important opportunity to 
evaluate the regulatory environment in which our small truckers 
operate and fine tune to the rules so they achieve goals of 
both safer highways and a thriving, healthy trucking sector.
    I once again thank the witnesses for being here today and 
offering their insight.
    Thank you. I yield back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    And if Committee members have opening statements prepared I 
would ask that they be submitted for the record.
    And I would now like to take just a moment to explain our 
timing and lighting system rules here. It is pretty simple. You 
get 5 minutes. Each of you will get that and there is a 
lighting system to assist you. The green light will stay on for 
4 minutes. The yellow light will come on letting you know that 
you have a minute to wrap up and then the red light will come 
on. And you are supposed to stop by then. We will give you a 
little leeway but not a whole lot. So if you can stay within 
those parameters we would greatly appreciate it.
    I would now like to introduce our very distinguished panel 
here this morning. I am pleased to introduce our first witness, 
Monte Wiederhold, who is a constituent from our area in Ohio. 
Mr. Wiederhold is the president of B.L. Reever Transport, Inc., 
a small trucking company located in Maumee, Ohio. Mr. 
Wiederhold also serves on the Board of Directors at the Owner-
Operator Independent Drivers Association and he is testifying 
on their behalf today. We welcome you here today and look 
forward to your testimony.
    And our next witness will be Mr. Marty DiGiacomo. Mr. 
DiGiacomo is the owner of True Blue Transportation, a small 
family-owned trucking company located in Harrisburg, North 
Carolina, that provides trucking and brokerage services 
throughout the United States, as well as Canada and Mexico. He 
is testifying on behalf of the National Association of Small 
Trucking Companies, and we welcome you here as well.
    Our third witness will be Mr. Stephen Pelkey. Mr. Pelkey is 
the president and CEO of Atlas PyroVision Entertainment Group, 
a professional fireworks display company located in Jeffrey, 
New Hampshire. Mr. Pelkey also serves on the Board of Directors 
of the American Pyrotechnics Association, or APA and is the 
chairman of the APA's Transportation Committee. He will be 
testifying on behalf of the APA, and we welcome you here as 
well, Mr. Pelkey, and look forward to your testimony.
    And I would now like to yield to the ranking member to 
introduce our fourth witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Robert Garbini, the 
president of the National Ready-Mixed Concrete Association. Mr. 
Garbini joined NRMCA in December 1991 as the marketing director 
of building systems. Prior to joining NRMCA he was the owner of 
Foundation Constructors in McLean, Virginia, a design-build 
construction company. The National Ready-Mixed Concrete 
Association was founded in 1930 and works to serve the entire 
ready-mixed concrete industry over 80 percent of which are 
small businesses. Thank you for being here today.
    Chairman CHABOT. Thank you very much.
    And Mr. Wiederhold, you are recognized for 5 minutes.

    STATEMENTS OF MONTE WIEDERHOLD, PRESIDENT, B.L. REEVER 
      TRANSPORT, INC.; MARTY DIGIACOMO, OWNER, TRUE BLUE 
TRANSPORTATION; STEPHEN PELKEY; CHIEF EXECUTIVE OFFICER, ATLAS 
  PYROVISION ENTERTAINMENT GROUP, INC.; ROBERT GARBINI, P.E., 
      PRESIDENT, NATIONAL READY MIXED CONCRETE ASSOCIATION

                 STATEMENT OF MONTE WIEDERHOLD

    Mr. WIEDERHOLD. Thank you. Chairman Chabot, Ranking Member 
Velazquez, and members of the Committee. Thank you for the 
opportunity to testify today.
    My name is Monte Wiederhold and I began my career as a 
professional truck driver in 1973. I have been a small business 
owner since 1993 and I am the president of B.L. Reever 
Transport, Inc., a small fleet of seven drivers who, like me, 
are owner-operators. I have been a member of the Owner-Operator 
Independent Driver Association since 1983 and serve on its 
board of directors. I am a proud constituent of Chairman 
Chabot's and appreciate his interest in this subject and 
support for professional drivers.
    Small trucking businesses represent 96 percent of motor 
carriers in the U.S. and are the safest and most diverse 
operators on the roads. Our activities impact all sectors of 
the American economy, moving everything from agriculture 
products to military equipment. Unfortunately, the Federal 
Government has never grasped the importance of this diversity 
and continues to burden us with ``one size fits all'' 
regulations which punish small businesses and stifle 
competition. These costly and burdensome rules are often 
advanced at the behest of corporate motor carriers who use 
legislation and regulation to gain competitive advantages over 
smaller operators like me. Large fleets promote these 
regulations as a silver bullet solution to improving highway 
safety despite a distinct lack of evidence. In reality, they 
are economic weapons used to leave smaller competitors out of 
the market by increasing our operating costs. Continuance of 
the ``one size fits all'' approach makes the Federal Government 
regulating the safest truckers out of the industry.
    While Congress and the White House have been successful in 
providing relief on several key matters, it has failed to 
address serious concerns involving the most disruptive and 
expensive trucking regulation in history, the Electronic 
Logging Device or ELD mandate. The ELD mandate is estimated to 
cost a whopping $1.8 billion annually, yet provides no safety 
or economic benefit for small business truckers who will bear 
most of these costs. The rulemaking was approved based upon the 
false premise that ELDs will increase compliance with hours of 
service regulations and reduce the risk of fatigue-related 
crashes. There are also serious complications associated with 
implementation currently scheduled for December 18th. ELD 
manufacturers are allowed to self-certify their device without 
validation by the FMCSA and the agency has failed to adequately 
train law enforcement.
    While the ELD mandate must be repealed we believe it would 
be reasonable and responsible for Congress and DOT to delay 
implementation until all complications are fully resolved.
    Over 30 diverse organizations have joined our calls for a 
delay. Many more, including large fleets who championed the 
mandate, have pursued exemptions. The sheer number of 
businesses desperate for relief perfectly illustrates what 
happens when Washington recklessly embraces the ``one size fits 
all'' approach to regulations. OOIDA has requested that DOT 
temporarily exempt small trucking businesses with exemplary 
safety records from the mandate. Upon the request, only motor 
carriers defined by the Small Business Administration as small 
trucking businesses that have a record of no at-fault crashes 
would qualify and those with an unsatisfactory safety rating 
from the FMCSA would not be eligible. This exemption would 
provide temporary regulatory relief to America's safest 
professional drivers who have safety records that far exceed 
the large fleets who have been utilizing ELDs for years.
    The negative attention the ELD mandate has generated has 
exposed the fact that today's hours of service requirements are 
poorly designed. The rigid and restrictive requirements fail to 
provide the flexibility drivers need. Instead, these rules push 
truckers to drive farther and faster. Congress has taken steps 
to improve HOS but more can be done to benefit both drivers and 
highway safety.
    While professional drivers are dismayed by the lack of 
relief Washington has provided on the ELD mandate and what 
little progress was made on HOS, we are pleased by recent 
developments in other policy areas. We thank Congress for 
directing FMCSA to evaluate the effectiveness of the 
Compliance, Safety, and Accountability program which utilizes 
flawed methodology that does not accurately measure a carrier's 
safe performance and unfairly penalizes small business 
operators.
    Since CSA's inception in 2010, the number of fatalities in 
injury crisis has increased 14 percent and 55 percent, 
respectively, according to the FMCSA. A recent National Academy 
of Sciences review provided numerous recommendations for 
modifying CSA. These include improving data quality and 
collection, analyzing how driver turnover rates and levels of 
compensation impact safety and implementing transparency 
guidelines.
    We encourage Congress to hold FMCSA accountable in making 
these changes and fixing CSA. Owner-operators applaud the EPA's 
recent position to exempt glider kits from phase two with 
greenhouse gas emission standards. Regulations like phase two 
have dramatically altered small businesses' ability to purchase 
new or recently owned trucks, making them more reliable and 
affordable glider kits increasingly attractive. EPA's 
recommendations of this ``one size fits all'' rule is greatly 
appreciated and should be embraced by Congress.
    The Trump administration has also withdrawn a rulemaking on 
increasing the minimum liability insurance level for motor 
carriers. Today's motor carriers typically carry $1 million in 
coverage. Despite the facts that less than 0.2 percent of 
truck-involved accidents result in damages that exceed these 
levels, some large motor carriers and trial lawyers have sought 
to increase minimums to well over $4 million. Allowing such 
dramatic increases would essentially serve as a death sentence 
for small business truckers. To ensure the survival of small 
trucking businesses, Congress must follow the administration's 
lead and reject efforts to increase minimum liability 
insurance.
    Mr. Chairman, thank you again for the opportunity to 
testify. I look forward to hearing my fellow panelists' 
testimony and answering your questions.
    Chairman CHABOT. Thank you very much, Mr. Wiederhold. I 
think you got more words in that 5 minutes than anybody in the 
history of this Committee. So well done. Thank you.
    Mr. DiGiacomo, you are recognized for 5 minutes.

                  STATEMENT OF MARTY DIGIACOMO

    Mr. DIGIACOMO. Thank you, Mr. Chairman and members of the 
Small Business panel. Thank you so much for this opportunity. I 
really appreciate it.
    We are a small trucking company. I do provide brokerage 
services. I have been in trucking since 1979, and I think I 
have got a really good pulse on a lot of different trucking 
companies, even some that I brokered loads to just this week 
that are pleading to stop this ELD mandate. There are trucking 
companies, small family-owned trucking companies that just 
cannot afford to put in $700 GPSs with the companies wanting a 
one to 3 year contract with fees like $35, $55 a month, 
whatever. Trucking has always been a fluctuating business. You 
cannot depend on everything staying exactly the same all the 
time, as you know, just by the economy, what it looks like.
    So these trucking companies, and as Mr. Wiederhold said 
here, you know, there is no ``one size fits all.'' It cannot 
work that way because you have got crane companies. You have 
got towing and recovering. You have got tanker. You have got 
guys on pipelines. Food service, which I did before. I mean, I 
have done a lot of different things but you cannot put a law, I 
mean, a set of guidelines into place and then try to run it 
with an electronic log. It just creates nightmares and havoc 
and a lot of extra cost.
    And then, you know, being in the trucking industry this 
long, I remember the old rules where we could actually take 
naps when we wanted to and it would prolong our day. We could 
say, okay, yeah, we are going to take a nap now because I am 
tired. There are times when I would go out in the morning or at 
any time and, you know, an hour or two later it is like, I am 
really tired. I have just got to pull over and take a nap. 
Well, there is no incentive to do it with the hours of service. 
So the hours of service right now are connected. The hours of 
service rules are connected right alongside the ELD mandate. 
The ELDs should be a choice for trucking companies to take that 
option if they see that it is going to benefit them. We all 
want to be safe. Representing small business truckers like 
ourselves and OOIDA members and these other guys, we are small 
business people. We feel called to what we are doing. We love 
what we are doing. We are not doing it for the money because 
farming and trucking are about the same. The profit margins are 
so slim, yet you know, we are being forced to pay for this, pay 
for that. And as he had mentioned earlier, you know, trying to 
get these insurance levels up to $4 million. Why? You know, if 
you are with General Electric, yeah, you have to have a lot of 
insurance for problems you might have but, you know, Larry's 
Electric, it should not be that way.
    The same thing with a broker bond. It was initially 
$10,000. Now they want $75,000. Well, with big companies like 
C.H. Robinson and T.K. Well, whatever, you know, they do that 
much business in an hour. So what good is that transportation 
bond? But again, it is putting the burden on the small business 
trucker. We had our own brokerage but we had to get rid of it 
because we could not put up $75,000; we had put up $10,000. So 
a lot of these regulations are just killing small businesses. 
Now you have got drivers within our industry that have millions 
and millions of miles of safe driving. How is an ELD log going 
to help them become any safer than they already are? It is a 
penalization, like putting training wheels on a guy. Oh, you 
need training wheels now. You have been doing this 30, 40 
years. Yeah, but you know what? You need training wheels. No. 
That is not the answer. What I believe is the answer for safe 
drivers is training. And that is one of the reasons I joined 
NASTC. They have a training program for safety program for the 
driver members in the organization and I think, in my opinion, 
an ELD is not going to tell a driver judgmentally what the best 
thing is to do. It is not going to tell a driver, really, when 
he is tired? It is going to arrange for an appointment? You are 
going to be tired now. You need to go to sleep. You need to 
drive now. And the way the hours of service are set up right 
now they force a driver to keep pushing and the companies will 
push drivers. And I have been a part of that so I can give 
examples. And I can definitely give some examples of how the 
ELD is a very dangerous piece of equipment to put in a truck 
because it has happened to me when I did drive for a couple 
companies previously that had ELDs. The stress and frustration 
when you are under the gun with that ELD is so much a problem, 
and what it does, stress, frustration, and anger about what 
that thing is there for and what it makes you do actually 
produces fatigue. And that is what we are supposed to be 
avoiding here. We do not want fatigued drivers. We do not want 
drivers with bad attitudes, but that is what the ELD is doing.
    Thank you for your time.
    Chairman CHABOT. Thank you very much.
    Mr. Pelkey, you are recognized for 5 minutes.

                  STATEMENT OF STEPHEN PELKEY

    Mr. PELKEY. Good morning, Chairman Chabot, Ranking Member 
Velazquez, and other members of the Committee, I sincerely 
appreciate the opportunity to appear before you today to 
discuss how Federal regulations impact the small trucking 
industry, issues of vital importance to the U.S. fireworks 
industry.
    I am Stephen Pelkey, owner and CEO of Atlas PyroVision 
Entertainment Group, headquartered in Jaffrey, New Hampshire, 
along with my six daughters, five of which are actively 
involved in the family business. I serve on the board of 
directors of the American Pyrotechnics Association (APA) and as 
the chairman of APA's Transportation Committee. I am here on 
behalf of the APA and wish to share our industry concerns with 
the current ``one size fits all'' transportation regulations 
that unfairly harm small business.
    While this hearing focuses on the impact of Federal 
regulations on the small trucking industry, many industries, 
like fireworks, involve private carriers' transportation of 
goods and services. In other words, driving is incidental to 
the primary business function of loading and unloading tools of 
trade to provide a specific service, in our case, the setup and 
execution of a fireworks display.
    Now, a major concern with the current regulatory structure 
is that small industry stakeholders are continually swept into 
these ``one size fits all'' transportation regulations that are 
best suited for large commercial companies rather than small 
family businesses attempting to comply with a myriad of 
regulations. I would like to highlight just a few DOT 
regulations that are extremely challenging and have an unfair 
and disproportionate impact on businesses.
    DOD mandate. The fireworks industry is unique in that it 
depends upon short-term truck rentals as part of our business 
model utilizing them as our primary CMVs to meet the increased 
transportation activities during the 2-week period in and 
around the Independence Day holiday. After analyzing the 
significant negative impact that the DOD mandate would impose 
on the small companies that comprise the industry, the APA has 
worked to support the TRALA petition for relief for short-term 
rental trucks, as well as supportive legislation by 
Representative Babin that would provide for a 2-year delay in 
the implementation of this controversial mandate. 
Unfortunately, these efforts have not succeeded, and therefore, 
the APA has recently filed a request for a limited exemption 
from the ELD mandate during our peak Fourth of July period to 
coincide with APA's hours of service exemption. We hope that 
the Department of Transportation will act favorably upon our 
petition for relief.
    We are also very concerned about FMCSA's new minimum 
training requirements for entry-level CMV operators. While the 
extensive classroom and behind-the-wheel training requirements 
may well be appropriate for entry-level drivers who desire to 
drive semi-trailers or operate long-haul commercial vehicles, 
there is no need to engage in this kind of extensive training 
for short-haul truck operators moving tools of trade. This type 
of training is best served by the hands-on training undertaken 
by each of our companies. Our drivers have far more knowledge 
and specific training about their cargo than most full-time CDL 
drivers working for long-haul companies.
    Additionally, we remain concerned about Federal Motor 
Carriers Hazardous Materials Safety Permit program. This 
program has been seriously flawed since the inception. While 
some efforts have been undertaken by the agency to address 
reforms and recognize the need for providing an additional 
level of review, much more must be done to provide HMSB holders 
with some level of assurance that they will simply not lose 
their permit upon which their livelihoods depend. The APA has 
widespread concerns regarding the agency's reliance on the 
behavioral analysis and safety improvement categories or basic 
ratings and their accuracy in judging a carrier's safety 
fitness, especially if the agency moves forward in the future 
with two ratings, fit and unfit. Carriers subject to these 
complex regulations and potential fitness ratings must be aware 
of the bar to achieve and maintain a fit rating. A small 
carrier cannot be judged against all carriers. How can a small 
family business who relies on a 2-week truck rental with very 
few inspections during the Fourth of July holiday be evaluated 
in the same manner as a 24/7 long-haul commercial trucking 
company inspected hundreds of times throughout the year?
    Atlas and the APA are committed to ensuring safety in the 
transportation, handling, and execution of our fireworks 
displays. We need reasonable regulations in order to ensure 
safety compliance without placing undue burdens upon our small 
businesses.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions that you may have.
    Chairman CHABOT. Thank you very much.
    Mr. Garbini, you are recognized for 5 minutes.

                  STATEMENT OF ROBERT GARBINI

    Mr. GARBINI. Thank you, Chairman Chabot, Ranking Member 
Velazquez, and members of the small business community. Thank 
you for the invitation to join you today to discuss the impact 
of Federal regulations on our industry and industries that use 
local delivery trucks.
    I am testifying today on behalf of the National Ready-Mixed 
Concrete Association's members such as Hilltop Resources in 
Ohio District 1 and also DKN Ready-Mix in New York District 7. 
We represent more than 2,500 companies in our industry with 
subsidiaries that employ more than 135,000 American workers who 
manufacture and deliver ready-mixed concrete.
    Roughly 85 percent of our industry is composed of family-
owned and operated small businesses. The industry includes more 
than 70,000 ready-mixed concrete trucks and 6,000 ready-mixed 
concrete plants. Ready-mixed concrete companies produce a 
construction material vital to our economy and environment. 
From roads to bridges to homes and high-rise buildings, our 
built environment could not be realized without the use of 
ready-mixed concrete. In 2016 alone, the ready-mixed concrete 
industry produced 345 million cubic yards of ready-mixed 
concrete. That is roughly 1 cubic yard per person for everyone 
in the United States and in excess of $35 billion in revenue.
    Our industry faces unique challenges. Once ready-mixed 
concrete is loaded into a truck, it must be placed and 
discharged within 90 minutes or it will harden, causing 
permanent damage to the truck. There is no way that you can 
cool that material down or prolong it. The perishable nature of 
our product means that our industry is intensely local and the 
average delivery time is just 14 miles roundtrip from the 
plant. Because of the uniqueness of the product in our 
industry, we are often adversely impacted by the Federal 
trucking regulations that are intended for the trucking 
industry more broadly both because of the differences in the 
industry and because of the size of our business. While large 
companies can readily muster the resources necessary to keep up 
with, understand, and comply with Federal regulations, the 
small companies that make up our industry are less able to do 
so and consequently are disproportionately affected by these 
regulations.
    Regulations should not be ``one size fits all,'' and 
because it is rarely the case that one size does fit all, the 
small trucking industry and the industries that support it are 
examples of potential companies that are affected adversely by 
the unintended consequences.
    In my submitted testimony I touch on three current and two 
proposed regulations that impact or will impact the small 
trucking industry. The upcoming mandate from the Federal Motor 
Carrier Safety Administration regarding the installation of 
ELDs on commercial motor vehicles as mentioned by others here 
represent an outside burden on the small trucking industry. 
Similarly, compliance with phase two of the greenhouse gas 
emissions and fuel efficiency standards for medium and heavy-
duty engines and vehicles presents a burden that small 
businesses are less able to shoulder than big businesses. 
Federal truck weight regulations often force heavy trucks like 
those used for delivering ready-mixed concrete to use local and 
state roads rather than highways causing unnecessary wear and 
tear on those roads and increasing the cost of ready-mixed 
concrete delivery.
    In addition, proposed Federal regulations such as the 
mandatory use of speed limiters and mandatory screening for 
sleep apnea will have an unduly large adverse impact on the 
industry and those using the local delivery trucks, and on 
small businesses associated with the industry. These are 
instances where regulations intended to apply broadly 
disproportionately impact small businesses.
    I appreciate this Committee's dedication to and concern for 
the plight of the small business person, and I thank you for 
the opportunity to address these issues.
    Chairman CHABOT. Thank you very much for your testimony.
    And we want to thank the entire panel for your testimony. 
And I will now recognize myself for 5 minutes to kick off the 
questioning here.
    And I will begin with you, Mr. Wiederhold. What specific 
costs would your business have to incur to comply with the ELD 
mandates, and how much of a burden would that be on your small 
business?
    Mr. WIEDERHOLD. Well, it is going to be quite a burden. The 
costs for the ELDs can range anywhere from--there is I think 
about 200 different ones on the market right now. Some of them 
could be as small as $100. Some of them could be as much as 
$1,000. Then we have monitoring fees that could start anywhere 
from $30 to $40-$50 a month depending on what you want the ELD 
to take care of. And you know, as a small business, as a fleet 
like me, my wife works in an office at home and then I have an 
office manager that she takes care of the dispatch and filing 
and things that way. We are not going to realize any savings 
from this because they talk about a savings that is going to be 
realized from using ELDs. The big fleets could not do that 
because they have got it figured in their fuel taxes, their 
costs of operation and things and all like that. So we are not 
going to be able to realize that. Some companies that have used 
that are actually going to gain money from the technology 
because as referenced in the 2007 Senate hearing that was held 
on truck driver fatigue, one company that testified was saving 
$182,000 in one year because their transmission costs went down 
$11,000 and they got rid of one position in the office of 
$50,000. So they saved $182,000 in one year. I am not going to 
lay Doreen off that works for me because I am going to save 
whatever it is. And if you have times trucks, if you 
extrapolate that out, if you bought the top of the line type 
ELD you are looking at $7,000 plus monitoring with no added 
safety benefit. One of my drivers has over 34 years of zero 
accidents. How is it going to make him any safer? We are not 
going to realize that.
    Chairman CHABOT. Thank you very much.
    Mr. DiGiacomo, let me go to you next. In your testimony you 
stated that truck drivers need flexibility when it comes to 
hours of service and off-duty time. Is enough being done 
currently to provide adequate and safe locations for truck 
drivers to rest? What should we be doing in addition to address 
that issue?
    Mr. DIGIACOMO. Well, I am glad you asked that question. No, 
first of all, ever since the new hours of service rules went 
into effect with the 10 hours consecutive time off you have 
truck stops filling up a lot earlier now. Ever since then truck 
parking has become critical. And you add into that the ELDs in 
a guy's truck, my truck got slammed in a truck stop when I was 
parked at the end because a guy was racing around trying to 
find a parking spot so he could get his off-duty time started. 
He was running out of hours and so that is part of the stress 
issue.
    The other thing is with the ELDs, anything can happen on a 
highway or with your customer and you are not going to end up 
exactly where you hope to end up to take a rest all the time 
and so you have got to have some flexibility. Now, ELDs can put 
you in spots where there is no facilities, no place to take a 
shower, no place to brush your teeth, no toilets. So how is 
that going to be a rest when you have got to take 10 hours off, 
let's say on the side of the road? There is no rest there. That 
is another problem with ELDs. And you have got a lot of parking 
spaces for trucks that are out there now. Even the scale houses 
do not provide facilities. And then you have the issue of a 
driver if he is parked overnight and there are no facilities, 
if he gets caught watering down his tires as they say, he can 
be ticketed for indecent exposure, which results often in a 
sexual offender list you have to sign up on. So, I mean, there 
are so many issues in this. But also, the rest areas, if they 
do not have facilities, are really not a good place to rest 
overnight. So the parking has become a serious problem. And 
with the ELDs you could end up in a very bad neighborhood or 
the wrong place, or a shipper or receiver that you end up to 
load or unload at, often they will say no parking here. Well, 
where are you going to go? I am out of hours. That is the 
problem.
    Chairman CHABOT. Thank you very much.
    My time is just about to run out, so Mr. Pelkey, rather 
than not even get to give you a response, I think I am going to 
say my time is expired and I will now yield to the ranking 
member for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Mr. Garbini, I would like to ask my first question to you. 
The truck mixer is a very specialized vehicle and has many 
nuances to driving one. Can you elaborate on the unique 
barriers that your members face as truckers?
    Mr. GARBINI. That is an excellent question. And the truck 
itself----
    Chairman CHABOT. I am not sure if the mic is on.
    Mr. GARBINI. Thank you. There we are.
    Ms. VELAZQUEZ. Yes, now it is on.
    Mr. GARBINI. The vehicle, and I think everyone in this room 
has probably seen a ready-mixed concrete mixer truck. It is a 
mobile manufacturing facility. So the driver has to have the 
skill to mix structurally acceptable concrete, have it placed 
safely, and maneuver it onto a construction site. So that by 
itself also provides the driver that opportunity to get in and 
out of the truck that does not have the same qualities as a 
long-haul trucker where you are trying to log the amount of 
time that that man or woman has been driving.
    Ms. VELAZQUEZ. Thank you.
    Mr. Pelkey, you represent another type of trucking 
industry. What would you say are the unique challenges to your 
members?
    Mr. PELKEY. The biggest challenge that we have is that for 
one, we are provided an hours of service exemption over our 
busy Fourth of July holiday and that is usually over an 11-day 
period. And that is for a 14-hour period because we have very 
unique circumstances where throughout the day they may get time 
off because they have set up a certain section of the display, 
they may go back to a hotel room, or they go back to their 
home, or somewhere along those particular narrative. Then what 
happens is with the ELD, that goes away because there is no ELD 
out there that currently has any program that allows for anyone 
that has a waiver of sorts in the APA, and its member companies 
are not able to take advantage of that waiver. So we lose that.
    The other unique opposition that we have is that between 
the hours of service, most of our operations, 65-70 percent of 
our operations take place over the Fourth of July, and on the 
Fourth of July you may have drivers that are secondary to their 
nature of shooting fireworks, they are only driving 3 or 4 days 
a year. Subjecting them if they do not fully comply with an ELD 
and how to program it, they will lose or jeopardize our 
Hazardous Materials Safety Permit which puts us out of 
business.
    Ms. VELAZQUEZ. Thank you.
    I would like to ask my next question to Mr. Wiederhold and 
Mr. DiGiacomo. The Federal Motor Carriers Safety Administration 
prohibit carriers, shippers, and receivers from forcing drivers 
to drive when it might not be safe to do so, provide simple 
procedures for drivers to file a complaint, and stiff penalties 
for violations. So my question is, why would these protections 
be any less effective for a driver using an ELD than they would 
be for a driver using paper logs?
    Mr. DIGIACOMO. Well, the driver could certainly probably 
file a complaint but in reality if a driver does too much of 
that he is probably going to finding himself out of a job 
before long because the carrier, even though supposedly the 
harassment issue has been addressed by the FMCSA in the final 
rule, we still see instances today and we have had some 
screenshots. I do not know if any of you follow some of the 
Facebook stuff but there have been screenshots to where 
messages have come across and say you are sleeping with drive 
time. Why? Or if you can get this load there then we will fix 
your log. We will have safety fix your logs tomorrow. So a lot 
of people think the ELD mandate, the ELDs cannot be altered or 
cheated. They can be edited.
    Ms. VELAZQUEZ. Okay. Any other comments?
    Mr. DIGIACOMO. Yes. I would say that there are companies 
that claim they want to be safe. I drove for one very large 
carrier that is actually a worldwide company. They carry their 
own product. And they would regularly--and we ran local tanker 
work--they ran regularly pushing us where at the end of the day 
we would be done but they would say, hey, we have got this 
other run to go out on and you can go on that exemption for one 
day this week. So they would send you out on a run but unless 
everything worked out exactly perfectly like nothing ever does 
in the military either, you end up pulling over on the side of 
the road and calling them, and that is what we had to do. You 
had to wait on the side of the road or pull over and that 
extended your day. You had to wait for a guy to come out with a 
pickup. You might be 50 miles away, you might be five. You had 
to pull over and get that ride. Now you are extending your day. 
Now you get home late. You know, you have got to adjust all 
your logs. Those are some of the things. And like he said, I 
was actually fired from that job for banging my head underneath 
a trailer on something. He said that proves you are dangerous. 
And the reason was I would speak up about true dangerous 
situations and I would pre-trip my trip to the point where they 
were upset because I was actually showing, pointing out things 
that needed to be fixed. And they do not like people like that. 
They want a robot. There are certain companies that are like 
that. And that is one of the issues that I have come across.
    Ms. VELAZQUEZ. Thank you.
    Chairman CHABOT. The gentlelady's time has expired.
    The gentleman from Iowa, Mr. Blum, who is the chairman of 
the Subcommittee on Agriculture, Energy, and Trade is 
recognized for 5 minutes.
    Mr. BLUM. Thank you, Chairman Chabot. It took me a year but 
I can pronounce your name correctly. Thank you to our panelists 
for being here today.
    Let us start at the 60,000 foot level. Is the trucking 
industry overregulated?
    Mr. WIEDERHOLD. Yes.
    Mr. DIGIACOMO. Yes.
    Mr. PELKEY. Yes.
    Mr. GARBINI. Yes.
    Mr. BLUM. Okay, it is unanimous. Let the record reflect 
that.
    Secondly, are you having trouble finding drivers?
    Mr. DIGIACOMO. Yes.
    Mr. PELKEY. Yes.
    Mr. GARBINI. Yes.
    Mr. BLUM. And what is the reason for that? One at a time, I 
guess.
    Mr. GARBINI. I would say that the difficulty in finding 
drivers has a lot to do with the trade itself. In terms of the 
ready-mixed concrete industry, there is more involved than just 
driving a truck and that goes to my point about the unnecessary 
requirement for ELDs at this point. A person is in and out of 
the truck. They are subjected to getting onto a jobsite and so 
forth. And quite frankly, it is not just a mundane job of 
sitting in a truck and driving from point A to point B which is 
1,000 miles away. So oftentimes ready-mixed concrete producers 
are having a lot of difficulty finding individuals that want to 
get in there and be essentially entrepreneurs themselves.
    Mr. PELKEY. For the very, very short time period of the 
year these truckers do not want to go through the training. 
They do not want to go through the testing process. You have to 
get a test for your CDL. In our cases, whether it is a pickup 
truck or a van, if you have one placardable amount, box amount 
of product into your truck, you need to have a commercial 
driver's license with a hazmat endorsement. Well, with that 
requires a certain amount of training. They understand the 
product. They understand the services involved. But there is a 
lot of training. For 2 or 3 or 4 days out of the entire year, 
there is not enough financial incentive in there for them even 
with some of these people making $25 or $30 an hour.
    Mr. WIEDERHOLD. And if I could say to the perceived driver 
shortage problem that is being touted by a lot of the big 
megacarriers, there is actually a retention problem where 
turnover rates exceed 100 percent of a lot of these carriers. A 
lot of these carriers actually fashion their business model 
over the fact that they know it is going to be a revolving door 
process so we are not going to worry about too much if the guy 
stays or goes or whatever. And by the FMCSA's own estimates we 
have over 400,000 CDLs issued every year. They talk about a 
shortage of like 50,000 drivers by 2020. If you extrapolate 
that out there are going to be plenty of people. The problem is 
the uncompensated loading/unloading time. Drivers are paid by 
the mile or by the load, so when they are sitting at a dock 
someplace for several hours they are not getting paid for that. 
They are gone away from home for a long time. They get tired of 
missing the kids' birthdays or wedding anniversary. So there is 
a retention problem more so, especially our segment of the 
industry there. And I can speak to I hire only owner-operators 
so I am a little bit more specific in that you have to own your 
truck to come to work for me.
    My daughters work at an Apple store selling iPhones, iPads, 
that stuff, and when they have someone come in that is a truck 
and they talk about their dad owning a trucking company, then 
they say, oh, hey, I am looking for a job. So I think that 
there are people out there.
    But one other quick thing here. If wages were adjuster from 
1980 to what they are now because the average driver's pay is 
around 40 cents a mile, if that was adjusted for inflation you 
would have guys making 60 or 70 cents a mile. So the money 
talks just like it does on anything else.
    Mr. BLUM. I have a minute left.
    In listening to your testimonies, I was trying to 
ascertain, what is the bigger issue? Is it the cost of the ELDs 
or is it the inflexibility by industry, the ``one size fits 
all'' of the rules for the ELDs? If you could briefly, I have 
got 40 seconds.
    Mr. GARBINI. It is the latter for me.
    Mr. BLUM. Is it the cost or is it the inflexibility of the 
rules?
    Mr. WIEDERHOLD. I think it is the cost myself from my 
standpoint.
    Mr. DIGIACOMO. Cost and inflexibility.
    Mr. PELKEY. Yeah, the inflexibility and cost but primarily 
the inflexibility.
    Mr. BLUM. Great. And I am just about out of time. Thank you 
very much. I yield back, Mr. Chairman.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    The gentleman from--I think we have Mr. Evans next. Is that 
next in seniority? The gentlelady from California. I apologize. 
Okay. The gentlelady from California, Ms. Chu. Thank you.
    Ms. CHU. Yes. I would like to submit for the record a very 
compelling letter that was sent to the Committee by a coalition 
of groups, including the Teamsters regarding the ELDs.
    And I would like to----
    Chairman CHABOT. Without objection; so ordered.
    Ms. CHU. I would like to read excerpts from it. It says, 
``Our public health, safety, and law enforcement organizations, 
trucking companies, truck drivers, families of loved ones 
killed in truck crashes, and truck crash survivors write to 
express our staunch opposition to any attempts to delay 
implementation of the long-overdue Electronic Logging Device 
Rule. Truck driver fatigue has been a well-documented safety 
problem in the industry for decades. ELD are a proven and cost-
effective technology that will save lives and reduce injuries, 
and according to the U.S. Department of Transportation will 
result in over $1 billion in annualized net benefits. There is 
already widespread use of ELD technology in the U.S. and other 
countries. Nearly a third of trucks currently in service are 
equipped with ELDs. Similar technology has been used in Europe 
for decades and is required in the European Union, Japan, and 
other countries. Members of the trucking industry have known 
about this rule for years and have had ample time to prepare 
for it. Truck crash deaths and injuries are on the rise. In 
2016, 4,317 people were killed in crashes involving large 
trucks, representing an increase of more than 5 percent from 
the previous year and the highest number of fatalities since 
2007. We urge the Committee to oppose any weakening of this 
overdue, common sense truck safety regulation.'' And it is 
signed by the Teamsters, the Trucking Alliance, the Federal Law 
Enforcement Officers Association, and pages and pages of family 
members of those who have been killed in truck crashes. And so 
I would certainly like to express my concern about any delay in 
implementation of this rule.
    Just changing the topic, I would just like to say that 
trucking greatly affects my Los Angeles district. Sixty percent 
of all the goods in the U.S. travel through the ports of L.A. 
and Long Beach, and 40 percent of those goods travel through 
the San Gabriel Valley in my district and then out to the rest 
of the Nation. But with traffic congestion in the area, about 
one-fifth of the commercial trucks experience delays, and in 
fact, traffic congestion can increase the cost of shipping by 
50 to 250 percent. In particular we have routes that are very 
dangerous. We have a confluence of State Routes 57 and 60 
around my district demonstrating this problem. As a result, the 
Federal Highway Administration identified this 57/60 
confluences, one of them was 25 most congested freight-
significant locations in the Nation, and that is why we are 
working on making improvements through Tiger grants and so 
forth to relieve the freight bottleneck.
    So I would like to ask the panel, can you explain how 
congested freight corridors like the 57/60 impact the ability 
of your businesses to transport goods across the country? Do 
congested traffic patterns end up costing your business more?
    Mr. PELKEY. Well, I can only answer on our behalf for the 
fireworks industry. Twenty years ago we had virtually all 
commercial truck drivers were able to haul our fireworks from 
port to facility. When the Hazardous Materials Safety Permit 
was implemented, that was reduced by about half. In the last 3 
years that has been reduced by as much as 90 percent of 
available long-haul drivers because they do not want to comply 
with the Hazardous Materials Safety Permit Program. Period. So 
in that particular case we have just lost our fundamental need 
of being able to get our products out of port and had to rely 
on a lot of our own carriage.
    Mr. GARBINI. Congressman, let me say that in the ready-
mixed concrete industry, we are not falling into that niche 
that you just described. Our drivers, our delivery of our 
products, generally average 14 miles from where the concrete is 
batched. So we are not impacting that kind of congestion that 
you are talking about. In fact, the congestion, oftentimes, 
because of the truck weight limitations is forcing us onto the 
local roads, damaging those roads instead.
    Mr. DIGIACOMO. Yes, Congressman Chu, I would like to say 
that with those statistics, the ATA represents a lot of the 
line-haul companies that run terminal to terminal. Log ELDs in 
their trucks are okay. I mean, they work out well. UPS, 
companies like that where your truck is not running irregular 
or sitting at a shipper or receiver waiting on your shipper to 
load you. That is where you run into a lot of issues where the 
ELD and the hours of service come into play. But yes, the 
congestion is a problem because let's say you drive an hour and 
a half in the morning. You get to a shipper. Well, there are 
several trucks there. You might be there let's say 4 hours. So 
now you are 4 hours down. Okay. Let's say you take a nap. For 
hours does not count. It does not count because there is no 
incentive for that and it counts against your day. So now you 
go out. Let's say you start driving but you want to take a 
lunch. You take a lunch. Your hours after that 4 hours of 
sitting, and let's say you run into a traffic jam, which is 
what you are starting to talk about. And like we did coming up 
here, you know, several accidents, problems, that really ruins 
your day right there.
    Ms. CHU. Thank you. I yield back.
    Chairman CHABOT. Quick answer, Mr. Wiederhold, if you want 
to.
    Mr. WIEDERHOLD. Yeah, I would like to say to Congresslady 
Chu, that you talk about the accidents that happen. Depending 
upon what study you look at you are talking about 70 to 80 
percent of the accidents being the fault of the person driving 
the car. And fatigue has only played a role--this is according 
to the FMCSA--less than 1-1/2 percent of the drivers were 
judged to be fatigued at the time of an accident. And so as the 
driving day goes on, the first hour of driving has the most DOT 
recordable accidents, and the ninth, tenth, and eleventh hour, 
and even if somebody is caught past that, it is less than 0.9 
percent. So the congestion does play a role as far as the 
aggravation factor, and one of the reasons why a lot of people 
leave the industry.
    Chairman CHABOT. Okay. The gentlelady's time is expired. 
Thank you.
    Our newest member, the gentleman from Utah, Mr. Curtis, is 
recognized for 5 minutes.
    Mr. CURTIS. Thank you, Mr. Chairman, and ranking member. It 
is a pleasure to be with you.
    I would like to just briefly thank our four witnesses for 
being with us today.
    I owned a small business. As a matter of fact, I suspect 
that business over the course of many years used at least three 
of the four of your services. I am not sure about fireworks. 
And I know firsthand how difficult it is to do what you do 
every day and I would like to thank you. I know keeping the 
lights on, keeping those employees going, dealing with all the 
things you deal with. And then on top of that dealing with 
government regulation can be very burdensome. I also know as a 
mayor what happens when you drive on my roads and I have to fix 
those roads, so I have seen both sides of this.
    I would like to just express my feelings of concern for 
this legislation and the burden that we are putting on you and 
hope that me and my colleagues can find that proper balance 
that is necessary to make sure that our roads are safe and that 
we are doing the right things but that we are also not making 
it too burdensome for you.
    I would like to just end by sharing a brief segment of an 
email that was sent to me. I have been in this role only a few 
days and have a heard about a lot of issues, but I have 
actually heard about this from some of my constituents. And the 
comment I would like to share is, ``This is their livelihood 
and most small business owner-operators are against this but 
will be forced out if they cannot comply.'' And I think we just 
have to take that very seriously and understand the things that 
we are considering here. So with that, Mr. Chairman, I yield my 
time. Thank you.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    The gentleman from Pennsylvania, Mr. Evans, who is the 
ranking member of the Subcommittee on Economic Growth, Tax, and 
Capital Access is recognized for 5 minutes.
    Mr. EVANS. Thank you, Mr. Chairman.
    I do not think, at least I know I am not, anyone is against 
jobs and growth. I think we all understand that the best answer 
to moving the country forward is opportunity. So the question I 
want to just--it is not really a question, it is a comment. I 
am going to ask you to react to it.
    The question is it is important that we strike a balance to 
ensure that Federal regulations do not impede the growth of the 
trucking industry. At the same time the public safety of our 
truckers and those that share the road with them is critical. 
So I am asking each of you, give me some reaction to how do we 
strike that balance? Because all that are read in listening to 
my colleague in terms of the letter she just presented, I am 
interested in your reaction to how do we strike that balance?
    Mr. WIEDERHOLD. Well, first off I would like to say that by 
enacting common sense regulations, like the entry-level driver 
training rule we have finally got into existence now to where 
drivers need to be properly trained and not just go to a school 
for a couple weeks, ride with a trainer, and a lot of times 
these guys are riding with trainers who have only been driving 
a truck a year themselves. I recall my own experience after one 
year riding with my father, it was still a lot to learn and I 
am still learning things every day. So those are ways that we 
can actually move highway safety forward by enacting common 
sense regulations on things and actually using sound, 
scientific data. So those are things that I think we could do.
    Mr. DIGIACOMO. Yes. You know, we are all committed to 
safety. We are family-owned companies. I do not care if it is a 
Swift truck or C.R. England or whatever that has an accident, 
kills, or maims people, it hurts us to see families hurt. So we 
are committed to safety, which is why I am part of that safety 
training that we take all the time. Like he said, we learn 
things all the time every day in trucking and safety. You are 
always working towards being a safe driver. But as an example 
of how I think these ELDs are not the answer for safety is all 
these big motor carriers with the ELDs, hiring all these 
student drivers, their accident rates are very high and they 
have got some very serious accidents. And the Walmart driver 
that killed--I forget his name, but Tracy Morgan was the 
survivor, I guess. Okay, he was in his first 2 hours of 
driving. So it is like that ELD did not prevent that crash.
    I was in an incident where I had plenty of time with an 
ELD-equipped truck to get to my last stop many years ago and I 
was on Route 2 in Western Mass going down that road, came up 
behind a dump truck and I started losing time. Going down the 
mountain he started doing 25 miles an hour. And the rule was if 
you go over your hours twice in a year, which I already had 
one, you are fired. I had to start whipping out over that 
center line looking for a place to pass that guy on a downhill 
mountain which I would never do. I finally got past the guy and 
got down into town. I did not have enough time to pull into the 
place I was delivering to. I had to stop in the middle of the 
road, put my four-ways on, hit on-duty not driving. Did that 
five more times until I could get into that driveway with 
people cursing me. You are in the middle of a little road there 
and that is what the problem with ELDs is. When you are down to 
the second, to the minute, when you could have pulled into that 
place much safer, that is just one example of many I could 
give. But that is my input.
    Mr. EVANS. Thank you.
    Mr. PELKEY. Thank you, Congressman. Safety could not be any 
more important to any one of our members. We deal with low 
explosives on a daily basis. A lot of us are family owned. We 
have our sons, our daughters, our husbands, wives, that are 
involved directly in the business. So we take safety extremely 
important.
    The other problem that we have is the inflexibility of 
government, and when you say striking a balance, the balance 
being that we work on holidays and not every industry is the 
same. We work on the Fourth of July, New Year's Eve. We do not 
find many long-haul transportation companies that are willing 
to take two, three, four, five boxes to a particular display 
site that may be only an hour away from a facility on that 
particular day. They are just not willing, nor do they possess 
the HMSP or are willing to pass on that expense and all of the 
regulations associated to it, but our member companies are and 
they do so at their personal family expense.
    Mr. GARBINI. Congressman, one of the common elements from 
all the four testimonies was one size does not fit all. And I 
think there has got to be a greater examination on this rule to 
recognize that these light delivery trucks for short haul do 
not fall in the same categories.
    Mr. EVANS. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    The gentleman from Kentucky, Mr. Comer, is recognized for 5 
minutes.
    Mr. COMER. Thank you. Thank you, Mr. Chairman. And thank 
you all for being here today. This is a big issue in my 
district. I look at this rule, this ELD rule. This in my 
opinion is the equivalent of Dodd-Frank legislation on small 
community banks. This is the same thing that is happening with 
our small truckers. Most of the small independent truckers in 
my district feel like there are two reasons this rule became. 
It is because the bureaucrats think it is a good idea that have 
never been in the trucking business and the large, large 
trucking companies want it to have a further competitive 
advantage over the small guys. Whatever instance, that is not 
good for me.
    I am going to give you an example of how this affects a 
huge industry in America, in Kentucky, and especially in my 
district, agriculture. In Kentucky, we are the largest 
livestock producing state east of the Mississippi. The further 
east you go you still have a lot of cattle. If you look at the 
price of beef cattle--I am just using this as an example. The 
further away from Congressman Blum's district, Congressman 
Marshall's district you get, the cheaper the cost of cattle is. 
It can be the same type of cattle, the same weight, the same 
breed. The difference is the trucking cost to get it to the 
Midwest where the infrastructure is. When you transport 
livestock, it takes longer than 12 hours. We have a lot of 
livestock trucking companies in my district that take cattle 
from the east to the Midwest to where the cattle finishing 
takes place and the cattle processing takes place. If you do 
not allow a waiver if this rule is not changed for the 
livestock industry, the price of cattle will be zero the 
further east of the Mississippi you get. Because if you have to 
stop and unload those cattle--you cannot keep the cattle on the 
truck or any of the livestock on the truck because they will 
get disease, you have shrinkage, they are going to lose weight, 
they could die. So you have to find a place to unload all those 
cattle. People are not going to do that. That industry is going 
to be gone. The small farmers that you have in the eastern part 
of the United States. So I know that the Federal Motor Carrier 
Safety Administration issued a 90-day waiver for the ELD rule 
for livestock haulers. That waiver is helpful in the short term 
but it does nothing for the long term.
    So my question is, what is the best long-term solution to 
ensure the safety on our roadways for livestock and to continue 
the viability of the big livestock industry we have, and not 
just in my district in Kentucky but throughout the eastern part 
of the United States?
    Mr. GARBINI. Congressman, I am going to answer the same way 
I just did to Congressman Evans. And all four testimonies had 
the same common element to them that one size does not fit all. 
There has got to be a greater examination to give relief to 
situations like what you just described.
    Mr. PELKEY. And I think an important point to bring out is 
my personal circumstance in the 33 years that I have been in 
business is that we are handed regulation and then are told 
deal with it.
    Mr. COMER. Right.
    Mr. PELKEY. And dealing with it tends to--you make 
mistakes. You are trying to comply. You are trying to figure 
out how to comply. And the end result is, however, we are 
inspecting you and you did not do steps three, four, and five 
correctly. You did one great. Your heart was in the right 
place. Your mind was in the right place but you just did not 
get the job done. Therefore, here is a $2,500 fine and try to 
do better next time.
    Mr. WIEDERHOLD. From my standpoint, even as just a 
consumer, and I actually broke into the industry hauling 
cattle.
    Mr. COMER. You know what I am talking about?
    Mr. WIEDERHOLD. Yes. Absolutely. I did not go quite the 
distance that you are talking, but still nonetheless, you are 
talking about livestock here. It is not a load of freight.
    Mr. COMER. Right.
    Mr. WIEDERHOLD. So, but as a consumer, you are talking 
about dealing with the food chain of our country. And the fact 
that we have such a great, efficient transportation system 
enables food to be delivered, all kinds of goods to be 
delivered at a low cost to the consumers. And if I might throw 
this in also, a lot of people talk about the funding of our 
highways and stuff today and not really want to raise fuel 
taxes, but everybody benefits from that. You know, whether you 
never get out and drive on the highways, but if you are going 
to have stuff delivered from Amazon or whoever it is, and that 
is a big thing right now.
    Mr. COMER. You know, the shopping season. So, that all 
plays into that, so that is something that we need to consider.
    Chairman CHABOT. Thank you. The gentleman's time has 
expired.
    Mr. COMER. Thank you.
    Chairman CHABOT. Thank you.
    The gentleman from Florida, Mr. Lawson, who is the ranking 
member of the Subcommittee on Health and Technology, is 
recognized for 5 minutes.
    Mr. LAWSON. Thank you, Mr. Chairman. And welcome to the 
Committee.
    One of the areas that you were talking about is one size 
does not fit all and I can see that we were talking about it 
more and more this morning. And I was trying to get my hands 
around it because when I was in college, I was at Michigan and 
I worked for this company called Avante Express where they 
traveled all over Michigan but we had very little training on 
those trucks before we were traveling all over Michigan. I was 
working with a guy from Czechoslovakia who could not speak 
English and I had a map and we went back and forth trying to 
make things happen and trying to--but at that time we could 
only be on the road about 8 hours. Today I think you can be on 
the road about, what, 11 to 12 hours? Eleven hours, okay. And 
so, but we violated all of the principles because a lot of 
times we just could not make it in an 8-hour spread but we had 
to really get back. My concern is there are a lot of 
regulations that you all have to confront it with, and with 
those regulations that you confront it with, what is the best 
thing that you can offer to this Committee that we can work on 
to make changes so that we do not put so much pressure on the 
small business compared to the larger trucking firms? And I 
think that is extremely important.
    Mr. WIEDERHOLD. Well, you know, as small business truckers, 
we are not looking for any type of specific advantage, like we 
want the rules to apply to the big guys and not apply to us. We 
are not looking for that. We are all working within the rules 
we have right now. But the present hours of service has zero 
flexibility, and prior to 2003, we operated under maybe the 
rules you are talking about, the 8 hour. You could drive 10 
hours and you had 8 hours off. You could take your breaks as 
you wanted to. You were not penalized because you did not lose 
worktime later on in the day because if you took a 2 hour 
break, your clock was stopped. Whereas today the clock does not 
stop. It keeps going. It only stops if you have 8 hours. So the 
present hours of service is a huge, huge hindrance, and again, 
it penalizes drivers for trying to take the opportunity to be 
safe. And with regard to like the 14-hour rule, I have had 
personal experience of having to skip eating someplace because 
I was not going to get to my destination in time before my 14 
hour clock. You know, you are allowed 11 hours of driving and 3 
hours of on-duty time or whatever. Actually 13-1/2 now because 
we have a 30-minute break rule that we have to take before we 
acquire 8 hours of on-duty time. And that is another source of 
frustration because many drivers, and I have not talked to 
anybody that sees any merit in that. That is one of those rules 
that is another one that you just scratch your head with.
    Mr. DIGIACOMO. I would also agree with that. That is one of 
the biggest problems with the inflexibility and the half-hour 
break that they tell us we have to have with a combined 8 hours 
of on-duty and on-duty driving, what a big mess that is. In any 
other industry, a half-hour break is a lunch. Why do we not be 
able to take our lunch when we want to? And previously, the 10 
hours that you could drive with the 8 hours off--and you could 
break up that 8 hours however you wanted to, and the teams 
today, that is why you do not have many teams anymore. You 
cannot break up your sleeper time. They relegate that other 
driver to the sleeper for 10 straight hours. That is torture. I 
have run team a long time years ago.
    So here is what I think is really part of the answer is the 
ELD is not going to give safe results. It does not really get 
the result that we want. I will tell you what I think the 
answer is good, substantial training. A lot of these big 
megacarriers, I am not saying they all do this but they do not 
train the drivers really well and so that is why you have got 
guys going down Donner Pass and losing his breaks and they both 
flipped over and they are killed. You know, that is a famous 
video. So I am going to let the other guys speak.
    Mr. PELKEY. Driving for us is incidental to our business. 
Most of our jobs are less than 2 hours from the site, so we are 
only driving on the road anywhere between 1 and 3 hours in any 
given day. And it is the reason why Federal Motor Carrier had 
granted us a 14-hour hours of service exemption during our busy 
Fourth of July holiday over that 11 day period because we have 
a proven safety record of on the road driving. And the reason 
for that is because of the uniqueness of our organization that 
all of our member companies that arrive to a display site, they 
do some work, they may take some time off, they may go to a 
hotel room, their own home, because there are different crews 
that do different phases of a particular job. But at the end of 
the day they have only driven an hour. They may have to drive a 
half an hour to get their equipment back home, but it would be 
within that 14-hour period.
    Chairman CHABOT. Mr. Garbini, did you want to get an answer 
in there real quickly?
    Mr. GARBINI. I just wanted to comment that I think your 
search here and questions trying to find a solution for this 
are well founded. It lays with, quite frankly, working with 
industry on the small business side to come up with rules that 
make sense. I will leave it at that.
    Chairman CHABOT. Thank you very much. The gentleman's time 
is expired.
    Mr. LAWSON. I yield back.
    Chairman CHABOT. Thank you very much. The gentleman from 
California, Mr. Knight, who is the chairman of the Subcommittee 
on Contracting and Workforce is recognized for 5 minutes.
    Mr. KNIGHT. Thank you, Mr. Chairman. Just a couple things. 
I come from California. We have gone through a litany of 
different things that we can embattle the trucking industry. 
The particulate filters that we have gone through over the last 
8 or 10 years, I was in the legislature when that happened and 
a lot of the companies came forward and they bought those early 
particulate filters. A lot of engines were catching on fire. 
Their MPG was going down. Their ability to haul was going down. 
It was amazing those first couple years. Now we have kind of 
gone into the new filters and it is still a mess in California 
over many different areas of conversation. And then we went 
through the new motors. You could only have a certain amount or 
certain types of motors. And so the trucking industry wanted to 
come forward and buy the latest one to get them the furthest 
down the road. And so we dealt with many of the big 
manufacturers and said by 2025 you have to have this motor. And 
so the industry said we would just like to buy that. Well, the 
interesting thing was they did not build that motor at the time 
and so they had to buy the next stage of motor and then the 
next stage. And it just turned into a big mess. It is still a 
big mess in California. So we have gone through this and we 
have not listened to the trucking industry. We have listened to 
the politicians to write the laws and you have got to deal with 
it.
    So all that being said, on the ELD, is there ever going to 
be a time where you say that we have got to upgrade to 
something that will be better for the trucker, better for the 
industry, better for the owners? And it will be of this higher 
advanced over maybe just taking your log, maybe doing it on 
your own and things like that. Or would you say that the log 
and how it is done today is the best way that we can do it? And 
that might come from the industry. That might come from owners.
    Go ahead, sir.
    Mr. WIEDERHOLD. Well, we are not against the technology by 
any stretch. We are just against it being mandated because, 
again, as speaking to the bulk of our membership being single-
truck owner-operators, and I spoke to before, there is only 
going to be a cost. There is not going to be a savings because, 
I mean, outside of a guy is just lazy as far as figuring his 
fuel taxes, if you wanted to have a program that takes care of 
your fuel taxes that you are going to pay $40 or $50 a month 
for to keep track of then maybe, but I mean, the technology 
itself we are not against but the mandate is what we are 
opposed to.
    Mr. KNIGHT. Okay. Sir?
    Mr. DIGIACOMO. Yes. I would say that in the FMCSA's own 
words there is only a small percentage of drivers that are 
abusing the system. There are some problem drivers, just like 
if you have guys who are convicted of DWI in a town. Well, put 
a breathalyzer in their car. Do not put it in everybody's car. 
Why penalize everybody if they do not want it? How about if it 
was a choice? If it is going to benefit my business and help me 
to be safer, I will definitely buy it if it is going to help me 
be safer. But in my personal opinion, drivers that have been in 
this a long time and have great safety records, no serious 
instances of irresponsible driving, they do not even need a log 
book. They have been in it long enough. They have the maturity 
to run without a log and they would still be safe. So at some 
point I could see possibly looking into it if it is going to 
benefit me, and if it will really contribute to my safety. But 
the hours of service is the biggest problem right next to----
    Mr. KNIGHT. Okay. And a quick question on my last minute 
here. The industries, do the trade organizations and the 
industry come forward with ideas every year to say, hey, look, 
this is going to make us safer, this is going to make us more 
efficient, this is going to make it so we can make more money? 
All of those things are very important.
    Mr. PELKEY. And I guess I would put it on behalf of our 
American Pyrotechnics Association has put forth continuously, 
have worked tenaciously as far as getting and working with 
Federal Motor Carrier on giving options. And I think a lot of 
that has been given back by Federal Motor Carrier by granting 
our hours of service exemption. So we have proven as an 
industry and worked with Federal Motor Carrier to say that yes, 
you have a very safe record over this strong period of time 
that you do business. But many of our members only have one or 
two trucks. And I do not think that they have a problem with 
those particular ELD mandates for those particular trucks, but 
we were at 90 percent, I believe 3,600 rental trucks that we 
rely on from vans, 15-foot trucks, to 26-foot trucks from 
Budget, Ryder, Penske, whatever they may be, to transport for 2 
weeks out of the year to put equipment in and out of these 
trucks on a daily basis depending on what status a particular 
driver is in is just too problematic and just something that 
Federal Motor Carrier just does not want to deal with.
    Mr. KNIGHT. Thank you, Mr. Chair. I yield back.
    Chairman CHABOT. Thank you. The gentleman yields back.
    The gentlewoman from North Carolina, Ms. Adams, who is the 
ranking member of the Subcommittee on Investigations, 
Oversight, and Regulations, is recognized for 5 minutes.
    Ms. ADAMS. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here and for your testimony. A common 
theme among those opposed to the ELD rule is that they are too 
costly for small businesses to afford, but just a cursory 
reviews shows that there are several ELD options that come with 
no upfront costs and with monthly service fees as low as $10. 
In addition, the FMCSA estimates that drivers will save 
approximately 20 hours per year in time they otherwise spend 
filling out paper. And everything is kind of moving toward 
computers and technology. So why would they not benefit from 
adopting the ELDs? I mean, I have listened attentively but it 
seems to me it is just a change from paper to something else. 
So anybody can comment.
    Mr. WIEDERHOLD. Well, as far as it goes, you know, the ELD, 
you still have to put in things on your log, like your bill of 
lading model, who the shipping is, what kind of cargo you are 
carrying. Those things will still have to be entered whether 
you have a paper log or an ELD log. And this savings of time is 
mythical at best. I am sorry, but when I am doing my log as I 
keep it up during the day, it is probably 3 or 4 minutes maybe 
at that. And so there is not going to be this savings in time 
that they talk about. And drivers do not get paid by the hour 
anyway; they get paid by the mile or the load.
    Ms. ADAMS. Okay.
    Mr. DIGIACOMO. I would also say that those statistics that 
they give, you might want to check who gave that statistic. 
Maybe it is the manufacturer. Rand McNally is the biggest name. 
They claim to be the world's leader in maps because of their 
relationships with states and local municipalities, yet I have 
owned two of them for several years and I can tell you that the 
glitches and problems with that are consistent. They are never-
ending. They are not accurate and they never should have been 
put out on the market. And that is what you are going to end up 
with is a gadget that is going to have problems. And that is 
why we still have to carry, according to the ELD mandate, we 
still have to carry a paper log in the truck. Why? Well, they 
are not going to work all the time.
    And the other issue is if you are going to invest in 
something, you want to make sure it is going to be working all 
the time and not a problem to your truck. I have not done a lot 
of research on them because my truck is too old. I am not going 
to put one in. But a buddy of mine told me about the company 
that he is leased to is forcing all their drivers to take this 
one and it comes with a disclaimer, if you have any problems 
with the engine light coming on or any engine problems that 
occur, quickly disconnect this. Well, what are you going to do, 
pull over? Okay. So all these companies that are coming out 
with these, what kind of quality are they? Are they guaranteed 
to work? There you go. That is good.
    Ms. ADAMS. Thank you. Yes?
    Mr. GARBINI. My comment is that having an electronic 
logging device mandated on all vehicles, again, regardless of 
the size of the company or the length of drive that each one of 
the drivers may have in a day, is kind of a rationalization 
that electronics are going to be the solution. A company has to 
be committed to safety to begin with, and if they are doing 
that, and I think the question earlier from the congressman on 
the other end here, if the company is committed to safety, the 
paper log is going to work fine. The whole issue is really 
making it mandatory.
    Mr. PELKEY. And in our particular industry we, in the 
fireworks industry, in the American Pyrotechnics Association, 
we do not really have an hours of service problem. And we do 
not have a safety issue problem that we have, especially over 
the 2-week period of the Fourth of July, and the cost, many 
member companies have been using ELDs for probably, off and on 
over the last year and a half, and there are a cost. There are 
costs associated because you have a monthly fee, whether you 
rent it, you purchase it, and then a database fee for each 
individual driver. So that ranges anywhere between $200 and 
$300 per year per driver.
    And then on top of that, if they do not fill it out 
properly, in our uniqueness of our business, and if they have 
too many out-of-service conditions, what will happen is they 
will lose their Hazardous Materials Safety Permit. For the 
fireworks industry, that is their lifeblood. You might as well 
take their driver's license away and they are done. And that is 
the caveat that Federal Motor Carrier has over many of our 
member industries.
    Ms. ADAMS. Thank you, gentlemen.
    Mr. Chair, I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    The gentleman from Texas, Mr. Babin, who is the sponsor of 
the ELD Extension Act of 2017 is recognized for 5 minutes.
    Mr. BABIN. Yes, sir. Thank you, Mr. Chairman. It is a 
pleasure to be back in here.
    Recently our office had sent a letter to the president 
asking for a delay for all sectors of the trucking industry 
until April 1st. And since then DOT has granted a waiver for 3 
months to ag haulers and cattle haulers. And so I think that is 
proof that DOT certain has the authority to grant a waiver to 
whomever they wish in this process. I would like to hear from 
what each of you think. Would that be something that you would 
be in agreement that all sectors of our trucking industry 
should have a waiver of a temporary period of time, like the 3 
months that the cattle and the ag haulers have.
    Mr. WIEDERHOLD. Yes, I would agree with that. I mean, I 
think it is a laudable thing. I think that it actually needs to 
go farther than that but any reprieve to work out some of these 
problems associated with it would be welcome.
    Mr. DIGIACOMO. I would agree in that it does need to go 
further. And just a quick comment, if logs were the answer to 
safety, why does the government on FEMA loads throw out the 
logbook for all of the drivers if we are running FEMA loads and 
there are 26 states still operating with all these trucks 
bringing emergency relief, fuel, propane. These guys are 
running way over their hours. It is not a problem. What happens 
if my customer has a problem with a plant shut down and I have 
got to get something there so people will not be out of work? 
What is the difference between what the government allows and 
what our customers might need?
    Mr. PELKEY. And currently, APA members are granted a 14-
hour hours of service waiver for an 11-day period over the busy 
Fourth of July holiday. And any ELD use that we are mandated to 
use basically nullifies that waiver that they have already 
admitted that we have a very safe track record and have 
established that over at least a dozen or so years of an 
impeccable safety record associated with that time period that 
we celebrate and perform these displays that probably the 
Nation's fireworks displays, 70 percent of all displays 
performed in that 2-week period.
    Mr. GARBINI. I think your example of the relief that was 
given to the haulers, the livestock haulers is evidence again 
that the Federal Government and the agency, Federal Motor 
Carrier Safety Administration, have recognized that there are 
some flaws to this whole thing. There needs to be time taken 
with a stay on the entire process and have industry work with 
the regulators to come up with common sense. One size does not 
fit all across the board.
    Mr. BABIN. Absolutely. And then, you know, I would also say 
to my colleagues that if a company likes their ELD and there is 
a history of it, and some of these companies really do, but I 
have talked to far more of my constituents and also outside my 
district who drive that they have grave concerns about the 
unknowns and the question marks regarding it and just how safe 
it is. But if it saves a company money, if it actually does 
make the highways safer and each individual company finds that, 
then certainly I am not trying to abolish by any stretch of the 
imagination ELDs. Keep using them. In the words of our previous 
administration, if you like your ELD, you can keep your ELD. So 
that is all that we are trying to do and that is to get a 
little time, find out how these things work, get some 
testimony. We know that the previous administration said that 
there would be a $2 billion compliance cost on this thing. And 
so I think it is not unreasonable to ask for a waiver for a 
short period of time until we can answer these questions.
    Anyway, thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    And I want to thank the panel for their excellent testimony 
here this morning and now this afternoon.
    There is no question that the American economy relies 
heavily on the trucking industry and so therefore, this is a 
very important issue for us to consider. We, of course, 
understand that there is some disagreement between some of the 
small, probably all of the small trucking companies and some of 
the larger, and obviously the association that is one of the 
more significant ones in the trucking industry, too. But we 
thought that we ought to do our part as the Small Business 
Committee to make sure that there was an opportunity there for 
you to let this Committee know and we will let our colleagues 
know what we are hearing. And as I stated at the beginning, we 
are also inviting those with an opposite point of view to 
submit in writing their point of view so we can consider that 
as well.
    And I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned.
    Thank you very much.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]
                           
                           
                           A P P E N D I X


                 Testimony of Monte Wiederhold

              President B L Reever Transport, Inc.

                           before the

   United States House of Representatives Committee on Small 
                            Business

    ``Highway to Headache: Federal Regulations on the Small 
                      Trucking Industry''

                       November 29, 2017

    Chairman Chabot, Ranking Member Velazquez, and Members of 
the Committee, thank you for providing me the opportunity to 
testify today. My name is Monte Wiederhold and I began my 
career as a professional truck driver in 1973. I have been a 
small business owner since 1993 and I am the President of B L 
Reever Transport, Inc., located in Maumee, Ohio. My business is 
a small fleet, employing only 7 truckers, who like me, are 
owner-operators. Additionally, I have been a member of the 
Owner-Operator Independent Drivers Association (OOIDA) since 
1983 and currently serve on the organization's Board of 
Directors. I am also a proud constituent of Chairman Chabot's 
and appreciate his interest in this subject and long-time 
support for professional drivers.

    Small trucking businesses represent 96% of registered motor 
carriers in the United States. We are undoubtedly the safest 
and most diverse operators on the nation's roads. Our 
activities impact all sectors of the American economy on a 
daily basis. We move everything and anything--from agricultural 
products and household goods to military equipment and energy 
resources.

    Despite representing such a sizeable portion of the 
trucking industry, the federal government has never fully 
grasped the importance of our diversity, and continues to 
burden small business truckers with a ``one-size-fits-all'' 
approach to regulations. Time and time again, this approach 
punishes small businesses, stifles competition, and 
overregulates an industry deregulated by design. Too often, 
these costly and burdensome regulations are advanced at the 
behest of corporate motor carriers, who use the legislative and 
regulatory process to gain competitive advantages over smaller 
operators like me.

    Frequently, regulations promoted by these large fleets are 
disingenuously billed as silver bullet solutions to enhancing 
highway safety, despite a distinct lack of reputable evidence 
to support their claims. In reality, they are economic weapons 
used to squeeze smaller competitors out of the trucking 
industry by increasing their operating costs. Continuance of 
the ``one-size-fits-all'' approach has left the federal 
government complicit in driving the safest truckers on the road 
out of the industry through overregulation.

    Electronic Logging Devices (ELDs)

    While Congress and the new administration has recently been 
successful in providing relief for small trucking businesses on 
several key matters, it has surprisingly failed to adequately 
address serious concerns involving the most disruptive and 
expensive trucking regulation in history--the electronic 
logging device or ELD mandate.

    The ELD mandate is estimated to cost a whopping $1.8 
billion annually, yet provides no safety or economic benefit 
for small-business truckers or the wide range of customers who 
rely on truck transportation. The rulemaking was approved based 
upon the false premise that ELDs will increase compliance with 
Hours-of-Service (HOS) regulations and thereby reduce the risk 
of fatigue-related crashes. Simply reviewing the poor safety 
records of large fleets that have utilized ELDs for years will 
expose the fact these devices do not achieve those purported 
safety benefits. Even analysis by the Federal Motor Carrier 
Safety Administration (FMCSA) in 2011 and 2014 determined there 
is no discernable improvement to highway safety or decrease in 
HOS violations related to ELDs.

    The small number of large carriers that benefit from the 
utilization of ELDs are already using the technology to monitor 
their productivity. As a result, implementation of the mandate 
will force small businesses to bear a majority of the nearly $2 
billion price tag associated with the installation of these 
devices. For owner-operators, these costs will supplant a 
portion of investments otherwise devoted to maintenance, 
equipment, and other critical safety upgrades.

    While small-business truckers are adamant the ELD mandate 
must be repealed, we are also concerned by serious 
complications associated with its implementation, which is 
currently scheduled for December 18, 2017. Many significant 
technological concerns remain unresolved, including the 
certification of devices, connectivity problems in remote areas 
of the country, cybersecurity, vulnerabilities, and the ability 
of law enforcement to access information. Perhaps most 
alarming, ELD manufacturers are currently able to self-certify 
technology without validation by FMCSA, creating vast 
uncertainty within the regulated community.

    As owner-operators, some of the truckers who drive for B L 
Reever will be purchasing their own devices, based on their 
unique needs and budgets. Throughout their decision-making 
process, they have shared considerable concerns with me about 
the self-certification of devices and the uncertainty it 
causes. Unfortunately, the lack of FMCSA validation has created 
an atmosphere in which drivers have more confidence in 
identifying devices that are not wise investments than those 
that will ensure compliance.

    FMCSA has also failed to adequately train law enforcement. 
Recently, the Commercial Vehicle Safety Alliance (CVSA), which 
represents motor vehicle safety officials, announced they would 
conduct `soft' enforcement of the mandate through April 2018. 
Because the serious concerns of professional drivers have not 
been satisfactorily addressed, we believe it would be 
reasonable and responsible for Congress and the Department of 
Transportation (DOT) to pursue a delay in implementation or 
suspend the mandate until these problems are fully resolved.

    Concerns involving the ELD mandate and its flawed 
implementation are not isolated to OOIDA and small-businesses 
truckers. Over 30 organizations, representing a wide range of 
industries, have joined our calls for delaying the regulation. 
Many more, including large fleets who championed the mandate, 
have encountered serious difficulties with the regulation and 
pursued exemptions from its requirements. The sheer number of 
businesses desperate for relief perfectly illustrates what 
happens when the federal government recklessly embraces the 
``one-size-fits-all'' approach to trucking regulations.

    Last week, OOIDA submitted a request to DOT to exempt small 
trucking businesses with exemplary safety records from the 
mandate for a period of five years. Under the request, only 
motor carriers defined by the Small Business Administration 
(SBA) as a small-trucking business would qualify for relief 
from the $2 billion regulation. Additionally, the request 
stipulates that only motor carriers with a record of no at-
fault crashes would be exempted and those with an 
`Unsatisfactory' safety rating from FMCSA would not be 
eligible.

    If granted, this exemption would provide temporary 
regulatory relief to America's safest professional drivers, who 
have already demonstrated exceptional safety records that far 
exceed the large fleets who have been utilizing ELDs for years. 
Furthermore, it would prevent small trucking businesses, who 
operate on the slimmest of margins, from installing and 
maintaining costly fleet management devices that provide them 
no economic or productivity benefits.

    Because this request is undoubtedly consistent with the 
Trump Administration's efforts to provide regulatory relief for 
American businesses of all sizes, we are hopeful DOT will grant 
it prior to the mandate's December 18th implementation 
deadline.

    Hours-of-Service

    All the negative attention associated with the ELD mandate 
has exposed the fact today's Hours-of-Service (HOS) 
requirements are a significant and foundational problem for 
anyone involved in trucking. HOS standards are poorly designed 
and do not allow truckers to operate in the safest and most 
responsible manner. The overly rigid and restrictive 
requirements fail to provide the flexibility drivers need to 
rest when they are fatigued, avoid congestion and evade 
dangerous highway conditions. Instead, these rules force 
truckers to drive farther and faster.

    Drivers' frustration with HOS is extensive throughout our 
industry, with many truckers feeling as though they are 
constantly racing against the clock. Because we are typically 
paid by the mile, rather than the hour, today's HOS 
requirements effectively penalize drivers for stopping to rest, 
addressing equipment issues or even eating. With concerns about 
my daily allotment of drivable hours evaporating, I have 
skipped meals on the road to ensure I am able to reach my 
destination without jeopardizing compliance. Excessive waiting 
times for loading and unloading also use up a great deal of 
these available hours, as shippers and receives have no 
incentive to refrain from wasting a driver's time. And they 
often do so since it costs them nothing to make a driver wait. 
Truckers often are told by policy-makers to ``plan our days 
better'', but that is virtually impossible in a setting where 
the rest of the supply chain is not held to the same 
regulations. Shippers and receivers care nothing about the 14-
hour clock, making trucks essentially rolling warehouses that 
they will load or unload when convenient.

    Unfortunately, all the problems associated with HOS are 
compounded by the lack of adequate truck parking in every 
corner of the country--one of the most serious and overlooked 
safety issues in trucking. On the road, I routinely begin my 
quest for an increasingly elusive open parking space with about 
60 minutes left on my clock for fear my hours will expire 
before I find a safe location to stop. While I am not 
compensated for the time needed to find safe parking, I would 
certainly be penalized if I exceeded my HOS while searching. 
The lack of sufficient parking, coupled with the rigidity of 
HOS requirements, effects not only the safety, but the finances 
of drivers.

    In recent years, Congress has taken steps to improve HOS, 
but more can be done to create a system that benefits both 
drivers and highway safety. Unlike other issues that often 
generate contention among large and small motor carriers, 
efforts to modernize HOS requirements would likely garner broad 
support, as the current standards burden businesses of all 
sizes and varieties.

    While professional drivers are dismayed by the lack of 
relief Washington has provided on the ELD mandate and what 
little progress has been made on HOS, we are pleased by recent 
developments in other policy areas that affect our operations 
on a daily basis.

    EPA Greenhouse Gas Emissions, Phase 2

    Earlier this month, the Environmental Protection Agency 
(EPA) indicated it intends to exempt glider kits from Phase 2 
of its greenhouse gas emissions standards for heavy vehicles. 
This news was applauded by owner-operators, who are more 
frequently purchasing glider kits because of their reliability 
and affordability. Excessive and costly federal regulations 
like Phase 2 have dramatically altered small businesses' 
ability to purchase new or recently owned trucks. Since 2002, 
federal emission reduction standards have increased the cost of 
a new truck between $50,000 and $70,000, as additional 
environmental components and systems have become required. 
Given a glider kit's unique assembly, prices for these vehicles 
are typically 25-30% less than a new truck, allowing 
independent owner-operators to save tends of thousands of 
dollars on their purchase.

    While glider kits provide appealing cost savings for 
drivers, they are also reliable, efficient, and meet all of the 
required environmental and safety standards necessary for 
operation. If applied to glider kits, Phase 2 would have 
completely destroyed the domestic manufacturers of the 
equipment, jeopardizing quality jobs and eliminating the 
ability of small trucking businesses to acquire the vehicles 
that meet their needs.

    We are pleased by the EPA's change of heart on the 
regulation of glider kits, but it's important to remember this 
unique problem was the result of a much broader issue involving 
environmental regulation in the trucking industry. As a small-
business trucker, fuel is my largest expense. Operating on the 
sli8mmest of margins, I am constantly looking to reduce my fuel 
costs when it makes economic sense to do so. I don't need the 
EPA to mandate requirements, like Phase 2, to improve my 
efficiency because I'll make those improvements on my own, when 
I can afford them. Additionally, truck manufacturers have an 
economic incentive to develop and market vehicles that help 
drivers improve efficiency and cut costs. Environmental 
requirements that provide no improvements to efficiency also 
disproportionately impact small-business truckers, who, unlike 
large fleets, are less capable of phasing-in new technology 
over time or purchasing multiple units at discounted rates.

    With its recent decision on glider kits, the EPA has 
signaled it is moving away from its ``one-size-fits-all'' 
approach to the Phase 2 rule, but a fundamental change in the 
agency's overall philosophy on trucking regulations remains 
necessary.

    Minimum Insurance Liability Coverage

    In another victory for small-business truckers, the Trump 
Administration this summer withdrew a proposed rulemaking on 
increasing the minimum liability insurance level for motor 
carriers.

    Today, motor carriers are required by law to carry $750,000 
in liability insurance, though most small trucking businesses 
maintain policies that provides $1 million in coverage. Despite 
the fact less than 0.2% of truck-involved accidents result in 
property and personal injury damages that exceed current 
minimums, some large motor carriers and trial lawyers have 
sought to increase levels to well over $4 million. Because many 
of our nation's largest fleets are self-insured, many would 
hardly be impacted by these increased costs. This is precisely 
why several corporate motor carriers support calls for dramatic 
increases to insurance minimums--they understand a 500% spike 
in policy premiums would essentially be a death sentence for 
their small-business competitors like me.

    To ensure the survival of hundreds-of-thousands of small 
trucking businesses, elected officials must follow the 
administration's lead and reject efforts to dramatically 
increase minimum liability insurance.

    Driver `Shortage'

    Recently, corporate motor carriers have peddled the myth of 
a national driver shortage as a means to advance legislative 
and regulatory priorities that would actually harm drivers. The 
real problem in today's trucking industry is an astronomically 
high turnover rate and overcapacity of trucks--both perpetuated 
by large fleets.

    In its quarterly report, issued earlier this fall, the 
American Trucking Associations (ATA) indicated the driver 
turnover rate among large truckload carriers is a whopping 90%. 
Some individual fleet are currently experiencing embarrassingly 
high turnover rates above 100%. With FMCSA reporting over 
440,000 new CDL holders entering the workforce each year, the 
problem clearly isn't finding enough drivers, it's keeping them 
behind the wheel. This churn of drivers is exacerbated by large 
fleets, who continue to drive down trucker compensation and do 
little to improve increasingly difficult working conditions.

    Overcapacity is also widespread among the large fleets. 
While pleading for help from Washington to address the mythical 
driver shortage, corporate motor carriers routinely blame the 
overcapacity of trucks within their own fleets for lower than 
expected earnings. Clearly, there are more trucks on the road 
than freight to haul.

    If I lost a driver in my fleet tomorrow, I would certainly 
have a difficult time replacing him or her--not because there 
is a lack of CDL holders looking for employment, but because I 
prefer to hire drivers who have demonstrated a history of 
reliability and responsibility. Conversely, corporate motor 
carriers would rather advance legislative and regulatory 
proposals that help them put younger, less experienced and 
poorly trained drivers behind the wheel.

    When being sold policies to increase CDL holders in the 
workforce, Congress must consider the real world implications 
of these short-sighted proposals. Often, these policies are 
meant to enhance corporate revenue at the expense of drivers 
and highway safety.

    Unified Carrier Registration System

    While not a regulation, I would be remiss not to address 
drivers' ongoing frustration with the Unified Carrier 
Registration (UCR) system, a federally-authorized tax imposed 
on truckers that no longer serves a purpose and is administered 
with a distinct lack of transparency. I am particularly 
familiar with the system and its myriad shortcomings because I 
serve on the UCR's Board of Directors, which is comprised of 
federal and state officials, as well as representatives of the 
trucking industry.

    The system was established in the 2005 highway bill, known 
as the Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU), for the purpose of 
maintaining a single national register of motor carriers 
conducting interstate travel. Drivers have many concerns with 
the system, starting with the significant inequity in the 
assessment of fees. The current tax structure is particularly 
burdensome and costly for single truck operators or small fleet 
carriers, who unjustifiably pay higher taxes per truck than 
large fleets.

    Transparency within the program is severely lacking. Often, 
it is difficult to determine precisely what programs UCR taxes 
are supporting within the 41 participating states. We do know 
many states use UCR revenue as a non-federal match for Motor 
Carrier Safety Assistance Program (MCSAP) funding, which is 
devoted primarily to enforcement. Essentially, these states are 
utilizing a federally-authorized tax on motor carriers to 
leverage additional federal funding for the policing of them.

    Unfortunately, the UCR board, which oversees the entire 
system, is incapable or unwilling to address the concerns of 
truckers routinely voiced by their representatives on the 
panel. The time has come for Washington to take a closer look 
at the UCR and determine whether the system remains necessary. 
Since its inception, UCR has never been audited by the DOT 
Inspector General. A federal audit of how states are using UCR 
revenue and MCSAP funding would be a constructive first step to 
determine if the system is meeting its objectives. 
Congressional oversight of UCR is also badly needed and should 
occur more regularly. Since its launch, the system has never 
been the focus of a Congressional hearing. Improved oversight 
of UCR would help elected officials better understand the 
system and its impact on motor carriers.

    Conclusion

    Mr. Chairman, thank you again for the opportunity to 
testify. Because our industry is so heavily regulated and 
intrinsically complex, there are many, many more issues I would 
love to bring to the Committee's attention today. Instead, 
OOIDA will be submitting more information for the record.

    I look forward to hearing my fellow panelists testimony and 
answering your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       HEARING BEFORE THE UNITED STATES HOUSE OF REPRESENTATIVES


                      COMMITTEE ON SMALL BUSINESS


   ``HIGHWAY TO HEADACHE: FEDERAL REGULATIONS ON THE SMALL TRUCKING 
                               INDUSTRY''


                           November 29, 2017


                   Testimony of Robert Garbini, P.E.


          President, National Ready Mixed Concrete Association


    Chairman Chabot, Ranking Member Velazquez, and Members of 
the Small Business Committee, thank you for the invitation to 
join you today to discuss the impact of federal regulations on 
the small trucking industry.

    I am testifying today on behalf of the National Ready Mixed 
Concrete Association, which represents an industry with more 
than 2,250 companies and subsidiaries and employs more than 
135,000 American workers who manufacture and deliver ready 
mixed concrete. While the Association represents both national 
and multinational companies that operate in every congressional 
district in the United States, roughly 85 percent all ready 
mixed concrete companies are family-owned and operated small 
businesses. The industry includes more than 70,000 ready mixed 
concrete trucks and of 6,000 ready mixed concrete plants.

    Ready mixed concrete companies produce a construction 
material vital to our built environment. From roads to bridges, 
to homes and high-rises, our built environment could not be 
realized without the use of ready mixed concrete. This 
important building material is created by combining fine and 
course aggregates, cement and water. In 2016 alone, the ready 
mixed concrete industry is estimated to have produced more than 
342 million cubic yards of ready mixed concrete, representing a 
value in excess of $35 billion. Virtually every construction 
project in America uses at least some ready mixed concrete.

    Once ready mixed concrete is loaded into a truck, it must 
be poured within 60 to 90 minutes, or it will harden and render 
the truck useless. The perishable nature of our product means 
that our industry is intensely local, and deliveries are often 
made just miles from the closest plant. As a result, ready 
mixed concrete delivery vehicles typically travel very short 
distances before offloading their product.

    Because of the uniqueness of our product, and, 
consequently, our industry, the ready mixed concrete industry 
is often adversely impacted by federal trucking regulations 
intended to apply to the trucking industry more broadly, both 
because of the differences in industry and because of the 
differences in the size of our companies. While large companies 
can more easily muster the resources necessary to keep up, 
understand and comply with federal regulations, small companies 
are disproportionately affected by these regulations.

    Regulations should not be one-size-fits-all, because it is 
rarely the case that one size does in fact fit all. The small 
trucking industry and industries it supports are examples of 
the potential for the adverse effects of unintended 
consequences to small businesses.

    Electronic Logging Device

    One of the most obvious examples of this is the mandate 
that all commercial motor vehicles (CMV) be equipped with 
electronic logging devices (ELD) for House of Service (HOS) 
compliance. In a rule finalized December 16, 201 by the Federal 
Motor Carrier Safety Administration (FMCSA), all CMVs will be 
required to install and operate ELDs.

    While NRMCA appreciates FMCSA's recognition of the 
difference between short-haulers and long-haulers in the final 
rule, the rule complicates compliance with the ELD mandate. The 
rule states that short-haulers (those that can take advantage 
of the 100 air-mile logging exemption) will not be required to 
purchase, install and use ELDs. However, there is a caveat to 
the provision. The rule states that if a short-haul operator, 
not using an ELD, ends up coming out of compliance with the 100 
air-mile logging exemption, and thus needs to fill out a record 
of duty status retroactively for that day, this occurrence 
(logging) can only be allowed ``8 days in any 30-day period'', 
after which that driver will need to use an ELD.

    This is unachievable in the ready mixed concrete industry. 
Often, there are large construction jobs that occur throughout 
the year, particularly during busy months, that necessitate 
mixer drivers working longer days and needing to fill out a 
record of duty status daily during until the job or the busy 
period settle down. Under the rule, mixer drivers will be 
required to find the resources, make the investment to install 
the ELD and undergo training to comply with the ELD mandate for 
a brief period of time each year. The effect of this provision 
on the ready mixed concrete industry will be overly burdensome, 
both logistically and financially.

    The rule fails to take into account the industry specific 
circumstances of ready mixed concrete truck drivers. Ready 
mixe4d concrete delivery drivers typically only drive an 
average of 14 miles from a concrete plant, drive only 4-6 hours 
per day, start and end at the same location, are routinely 
released from duty within 12 hours from the start of their 
shift, spend 60% of their on-duty time engaged in non-
strenuous, non-driving related activities, and are not subject 
to fatigue inducing situations that long-haul drivers often 
experience.

    The mandated use of ELDs in CMVs is to ensure HOS 
compliance. As noted above, due to the working conditions of 
mixer drivers and the exemptions/exceptions to HOS compliance 
that are provided, making use of ELDs by mixer drivers is a 
technical inapplicability. ELDs cannot accurately determine HOS 
compliance since mixer drivers are only in the CMV or driving a 
small amount of the time they're on-duty. In the case of the 
100 air-mile exemption, mixer drivers and their employers only 
have to keep records of when the drivers started and ended 
their shifts, not a log of each individual duty status. 
Requiring a mixer driver to use ELDs cannot practically 
determine HOS compliance or productivity.

    Further complicating the issue, is the application of the 
100 air-mile logging exemption to the ready mixed concrete 
industry and the industry-specific change to the 100 air-mile 
logging exemption. Currently, the threshold for ready mixed 
concrete truck drivers on-duty time is 14 hours, instead of the 
standard 12 hours, as detailed in Title 49 of the Code of 
Federal Regulations, Section 395.1(e)(1) \1\. This change, 
which was brought about by the passage of the 2015 Fixing 
America's Surface Transportation Act (FAST Act) \2\, bring the 
on-duty threshold of the 100 air-mile logging exemption for 
ready mixed drivers in line with the 14-hour driving window 
\3\. What this means is that drivers of ready mixed concrete 
delivery vehicles are only required to install and use ELDs 
once a driver has worked beyond 14 hours more than 8 days in 
any 30-day period. This change, however, now creates the 
scenario where needing ELDs wouldn't be required until a period 
where a mixer driver can no longer even operate a CMV. The one-
size-fits-all approach to the ELD mandate will result in ready 
mixed drivers using ELDs year round, regardless of whether the 
rule applies.
---------------------------------------------------------------------------
    \1\ 49 CFR 396.1(e)(1)
    \2\ Public Law 114-94
    \3\ 49 CFR 395.3(a)(2)

    The underlying issue remains the penchant for federal 
regulations to be crafted in a one-size-fits-all manner. 
Because of the significant differences between industries 
impacted by this mandate, NRMCA strongly believes that the 
December 17, 2017 ELD effective date should be placed on hold 
until the rule can be comprehensively reviewed by FMCSA to 
determine the unforeseen, adverse impacts to the numerous 
unique trucking industry facets, including the ready mixed 
---------------------------------------------------------------------------
concrete industry.

    Phase 2

    A second regulation impacting the small trucking industry 
and by extension industries like the ready mixed concrete 
industry is a regulation commonly referred to as ``Phase 2.'' 
On October 25, 2016, the National Highway Traffic Safety 
Administration (NHTSA) and the Environmental Protection Agency 
(EPA) finalized a joint rule titled, ``Greenhouse Gas Emissions 
and Fuel Efficiency Standards for Medium- and Heavy-Duty 
Engines and Vehicles-Phase 2.'' \4\
---------------------------------------------------------------------------
    \4\ 81 Federal Register 73478

    Among the issues related to Phase 2 that impact the small 
trucking industry are the added costs, technology sufficiency 
and suitability, and impacts on heavy-duty, class 8, straight 
truck weight challenges. Currently, the vast majority (98 
percent) of American ready mixed concrete markets employ 
single-unit concrete mixer trucks operating on between 2- to 7-
axels \5\ to deliver ready mixed concrete to its point of 
placement. Under this regulation, these trucks would fit into 
the definition of vocational, heavy-duty, class 8 trucks.
---------------------------------------------------------------------------
    \5\ NRMCA, 2017 Fleet Benchmarking Survey

    NRMCA supports maintaining the flexibility of ready mixed 
concrete producers to utilize their already purchased assets to 
their fullest capacity, such as with ``glider kits''. To this 
end, NRMCA opposes the rule's suggestion to require glider kits 
contain Phase 2 compliant engines. Continuing to allow ready 
mixed concrete producers the opportunity to utilize refurbished 
trucks, truck parts and engines is an entrepreneurial 
inventiveness affording industry members economic and 
productivity advantages and competitiveness. Changing the 
current glider kit system will undoubtedly cause undue harm and 
hardship for many ready mixed concrete companies that base 
their business model on glider kits instead of purchasing brand 
---------------------------------------------------------------------------
new trucks.

    Upending the current glider kit system serves as an 
unnecessary coercion on market forces that alone will 
inevitably pressure the phase out of pre-Phase 2 engines. 
Requiring glider kits to be Phase 2 complaint would be 
redundant, unnecessary, and unfairly expeditious on the ready 
mixed concrete industry.

    Furthermore, NRMCA would like to highlight comments 
reported on that were made by Matthew Spears, executive 
director of EPA's Heavy-Duty Diesel Program at a past session 
of the American Trucking Association's Technology & Maintenance 
Council (September 22, 2015), in which he noted that the Phase 
2 program changes to glider kits may be left alone when applied 
to concrete mixer truck chassis. In the final rule, this notion 
was not reflected. NRMCA would very much support such a carve 
out for ready mixed concrete trucks. As much, mixer trucks do 
fall in line with any criteria that would exclude their 
coverage based on low-mileage and/or vocational use.

    In the rule, NHTSA and EPA suggest weight reduction as a 
viable method to meet the proposal's requirements. While NRMCA 
does not disagree with this approach, NRMCA objects to its 
feasibility as applied to ready mixed concrete trucks. Due to 
the reality of the necessary configuration of trucks hauling 
ready mixed concrete, combined with current regulations from 
numerous other U.S. regulatory bodies, weight poses a unique 
and continuing challenge to the industry.

    The necessity for manufacturing ready mixed concrete trucks 
with the lowest possible weight has existed as a market force 
since the inception of the federal bridge formula for truck 
weight restrictions on federal-aid highways. Manufacturing a 
light-weight mixer truck that meets all regulatory compliance 
thresholds and can still haul a full load remains a constant 
challenge of innovation and creativity.

    The rule makes assumptions about heavy-duty truck weights 
in order to make suggestions about how weight reduction can be 
applied to meeting the rule's requirements. These assumptions, 
in the case of ready mixed concrete trucks are incorrect and 
miss the reality of a mixer truck's true tare and payload 
weights by thousands of pounds. For example, the maximum weight 
allowed on federal-aid highways is 80,000 lbs. spread over a 
calculated number of axles. However, due to structural design 
and specialized equipment installed on mixer trucks for 
handling such a heavy payload, under federal weight limits a 
typical ready mixed concrete truck ends up weighing 
considerably less than the allowable threshold. The realities 
of truck weight regulations leave little extra room for 
carrying payload. According to NHTSA's and EPA's assumptions 
these tolerances are roughly 3,000 to 6,000 lbs. lighter than 
what is true for mixer truck weights.

    In addition to the federal weight tolerances, structural 
designs and necessary specialized industry equipment, along 
with previous emission regulation requirements that have added 
weight to mixer trucks, the overall acceptable weight of mixer 
trucks has reached its limit. Not to mention, this current 
weight of mixer trucks includes and takes into account the 
weight changes needed to comply with Phase 1 and all of the 
alternative material suggestions mentioned in the Phase 2 rule. 
All of these weight considerations have pushed ready mixed 
concrete producers to running mixer trucks, in many cases, with 
a .002% margin of weight threshold. Meaning, under such weight 
conditions, a truck merely getting too dirty will put it over 
legal weight limits and risk non-compliance.

    Furthermore, the nature of hauling and delivering ready 
mixed concrete gives way to various driving conditions, road 
conditions, weather conditions and construction site 
conditions. Due to such realities, mixer trucks are designed to 
meet this inevitable rough-and-tough wear-and-tear atmosphere. 
Such a design requires materials that can handle these stresses 
and keep trucks moving; these materials invariably add weight 
to a ready mixed concrete truck.

    Many of the methods NHTSA and EPA suggest in both Phase I 
and Phase II for complying with the rule are already being 
implemented by the industry, and numerous other suggestions in 
Phase II are simply not practical for mixer trucks, leaving 
technology that has yet to be invented or perfected the method 
the industry most likely will have left at is disposal for 
complying with Phase II. To this end, NRMCA recommends that 
NHTSA abandon this non-attainable rule in its entirety. Short 
of full repeal of the final rule, instead of pushing weight 
reductions, NRMCA advocates for increased weight tolerances in 
amounts large enough to offset the weights of new equipment and 
technology that will be employed for compliance with Phase II. 
NRMCA would like to remind NHTSA that such a precedent already 
exists for auxiliary power units and idling-reduction 
technology in many states.

    NRMCA believes the Phase 2 rule is unduly burdensome and 
should better take into account cost and technology 
implications on downstream purchasers of heavy-duty trucks. As 
well, the new mandates for glider kits should not cover low-
mileage, vocational trucks such as concrete mixer truck.

    The consequence of adding more weight to mixer trucks for 
Phase 2 compliance results in achieving the opposite goal of 
Phase 2. Simply put, if the industry is forced to reduce 
payload to meet low weight tolerances, the industry will then 
be forced to use more trucks, making more trips to deliver the 
same amount of ready mixed concrete. More trips mean increased 
emissions, increase fuel consumption, more trucks sitting in 
traffic, and longer hours for industry drivers.

    Truck Weights

    A third set of federal regulations that adversely impact 
the small trucking industry and small businesses that rely on 
it is the confusing, frustrating rules regarding truck weights. 
We have long advocated that federal truck weight regulations be 
updated to increase gross weights limits on the Eisenhower 
Interstate System (EIS). Research shows that increased weight 
limits would alleviate traffic congestion, increase safety, 
save millions of dollars annually on pavement and bridge 
maintenance and increase the productivity of large trucks used 
by businesses in the small trucking industry, such as ready 
mixed concrete trucks.

    In 1956 Congress passed legislation aimed at protecting the 
pavement and bridges on the EIS. Those protections came in the 
form of axle and gross weight limits. The federal law also 
authorized states to allow operation on the EIS beyond the 
specified limits, but only if operation was legal in the state 
prior to July 1, 1956. In response to energy use concerns, the 
Federal Aid Highway Amendments of 1974 increased the weight 
limits to allow larger and heavier trucks to utilize the EIS. 
As a balance to this concession, Congress created the Federal 
Bridge Formula (FBF), which limits the size and weight of 
trucks by calculating the gross weight over the spacing and 
number of axles; the heavier the weight, the greater the 
required spacing between axles.

    Federal weight limits \6\ are set at 20,000 lbs. for a 
single axle, 34,000 lbs. for tandem axles, and 80,000 lbs. 
gross weight. In addition, the current FBF is overly cautious 
and no practical basis is given for the overstress criteria 
used to limit weights and configurations. These limits are the 
most restrictive of any developed nation. By comparison, though 
comparable U.S. trucks are limited to a maximum 80,000 lbs., 
the maximum weight for a six-axle truck in Canada is 95,900 
lbs., in Mexico it is 106,920 lbs., and the European Commission 
has set the limit at 97,000 lbs.
---------------------------------------------------------------------------
    \6\ 23 CFR 658.17

    Ready mixed concrete trucks are heavy duty trucks and have 
relatively heavy empty (or tare) weights due to the nature of 
the work they must perform. This is attributed to structural 
design and specialized equipment installed on the vehicle for 
handling the load. Due to the relatively heavy weight of the 
empty vehicle, the limits imposed by federal weight laws, 
especially the FBF, leave little extra weight for carrying 
payload. As well, the majority of ready mixed concrete trucks 
have only three or four axels to maximize maneuverability for 
on- and off-road use, and to deliver product under often 
challenging circumstances. For example, (not including states 
with higher grandfathered weight tolerances) under federal 
weight limits a three-axle ready mixed concrete truck could 
weigh a maximum of 48,000 lbs. Only 18,000 lbs. (out of a 
potential 40,000 lbs. in the mixer drum) would be the 
productive payload, since approximately 30,000 lbs. is the tare 
---------------------------------------------------------------------------
weight of the truck.

    As a result, federal weight laws essentially force fully 
loaded ready mixed concrete trucks off the EIS and onto local 
and state roads that are generally built to lower standards. 
While this congestion, makes for potentially unsafe driving 
conditions, and prematurely degrades secondary roadways, it 
also impacts the small trucking industry by drastically cutting 
efficiency and requiring extra miles to be traveled to deliver 
the product, resulting in increased fuel use and costs. Since 
ready mixed concrete trucks typically only travel a distance of 
14 miles from their reporting plant, and average less than four 
miles per gallon, these realities are both a product of and 
exacerbated by the current federal truck weight laws.

    Increasing federal truck weight limits will allow ready 
mixed concrete trucks to be more productive, will help reduce 
congestion and will also tend to decrease greenhouse gas 
emissions through reduced fuel consumption. This in turn helps 
achieve greater sustainability within the transportation and 
construction industry sectors through annual reductions of 
CO<INF>2</INF> and other greenhouse gas emissions. Addressing 
federal truck weight regulations will provide relief to the 
small trucking industry and benefits for the environment.

    Sleep Apnea

    The first set of proposed regulations that would adversely 
impact the small trucking industry and small businesses like 
ready mixed concrete companies, is a regulation related to 
evaluation of truck drivers for sleep apnea. On March 10, 2016, 
FMCSA and Federal Railroad Administration (FRA) published a 
joint advanced notice of proposed rulemaking (ANPRM) titled 
``Evaluation of Safety Sensitive Personnel for Moderate-to-
Severe Obstructive Sleep Apnea'' \7\ (OSA).
---------------------------------------------------------------------------
    \7\ 81 Federal Register 12642

    Currently, the vast majority (98%) of American ready mixed 
concrete markets employ single-unit concrete mixer trucks 
operating on 2- to 7-axels \8\ to deliver ready mixed concrete 
to its point of placement. As noted, the average one-way 
distance a ready mixed concrete truck travels for a delivery is 
roughly 14 miles away from the ready mixed concrete plant and 
concrete mixer truck drivers spend less than 50% of their total 
on-duty time actually driving. Due to the perishable nature of 
ready mixed concrete \9\ and the distance traveled, the time a 
driver spends behind the wheel is extremely limited. 
Consequently, mixer truck drivers are strictly short-haul 
operators and not subject to certain fatigue inducing 
circumstances that exist for long-haul operators and other 
types of CMV drivers.
---------------------------------------------------------------------------
    \8\ NRMCA, 2017 Fleet Benchmarking Survey
    \9\ American Society for Testing and Materials, Standard C94, 2016

    As NRMCA previously testified at the May 25, 2016 OSA 
listening session in Los Angeles, CA \10\, NRMCA believes it is 
important to again, reiterate that many different factors can 
lead to fatigue beyond OSA, and many different factors can lead 
to crashes involving large trucks beyond OSA.
---------------------------------------------------------------------------
    \10\ 81 Federal Register 25366

    In a survey of NRMCA's membership covering all geographic 
regions of the country and involving all sizes of businesses, 
NRMCA found that medical insurance coverage for OSA testing, 
treatment and required equipment is severely limited and would 
result in out-of-pocket costs to drivers and small businesses 
of between $1,000 and $3,000 annually per driver. Write-in 
responses to the same survey indicated costs as high was 
---------------------------------------------------------------------------
$12,000 to $15,000.

    The financial burden associated with this proposed 
regulation may dissuade drivers from the small trucking 
industry or from working for small businesses, potentially 
exacerbating the driver shortage currently stalking the 
industry. Within the ready mixed concrete industry alone, as 
the economy continues to grow, firms have had to refuse 
business simply because they do not have enough drivers to 
handle the workload. Prospective drivers that may want to enter 
this profession, under a new rule, would likely be faced with 
having to cover certified medical examiner costs, testing costs 
and treatment out of their own pocket before being employed and 
likely even before being considered for employment.

    Speed Limiters

    The second proposed regulation that would adversely affect 
the small trucking industry that I would like to draw your 
attention to related to speed limiters. On September 7, 2016, 
the Federal Motor Carrier Safety Administration (FMCSA) and 
National Highway Traffic Safety Administration (NHTSA) 
published a notice of proposed rulemaking (proposal) titled 
``Federal Motor Vehicle Safety Standards; Federal Motor Carrier 
Safety Regulations; Parts and Accessories Necessary for Safe 
Operations; Speed Limiting Devices'' \11\.
---------------------------------------------------------------------------
    \11\ 81 Federal Register 61941

    Regardless of the merit of the proposed regulation, it 
highlights again the failure of the one-size-fits-all mentality 
to account for the very real differences between and variances 
within industries. While there are real concerns about the 
unsafe environment that may be created on our nation's roadways 
by the potential of a speed differential between large trucks 
traveling slower than the smaller, faster motoring public, the 
rule as applied to the ready mixed concrete industry is 
unnecessary and would impose a burden disproportionate its 
---------------------------------------------------------------------------
benefits.

    Ready mixed concrete mixer truck drivers do not often reach 
the three speed limits listed as potential thresholds in the 
proposal (60 miles per hour, 65 and 68). Industry experience 
suggests that crashes within the industry generally occur at 
lower speeds and regularly do not involve other vehicles, 
making such a regulation when applied to the ready mixed 
concrete industry unlikely to increase safety on our nation's 
roadways for the industry and the motoring public, while 
imposing a disproportionately high burden on the small trucking 
industry and the small businesses in related industries, 
including the ready mixed concrete industry.

    In conclusion, I would like to thank the Committee for the 
opportunity to discuss federal regulations adversely impacting 
the small trucking industry. The regulations addressed in this 
testimony are representative of a one size fits all approach to 
trucking regulations. NRMCA urges this Committee and federal 
regulators to carefully weigh the implications for regulations 
to all industries, including the small trucking industry and 
those associated with it like the ready mixed concrete 
industry, as well as consider the disproportionate weight of 
compliance on small businesses.

    I look forward to the testimony presented by my fellow 
panelists and taking any questions you may have regarding my 
own.

    Thank you.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
